<html>
<title> - U.S.-COLOMBIA RELATIONS: NEW OPPORTUNITIES TO REINFORCE AND STRENGTHEN OUR BILATERAL RELATIONSHIP</title>
<body><pre>[Senate Hearing 116-210]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-210
 
             U.S.-COLOMBIA RELATIONS: NEW OPPORTUNITIES TO 
                     REINFORCE AND STRENGTHEN OUR 
                         BILATERAL RELATIONSHIP

=======================================================================

                                HEARING


                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION



                               __________

                           SEPTEMBER 18, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       






                  Available via the World Wide Web:                   
                     http://www.govinfo.gov                       
                        
                        
                          ______                      
 

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-614 PDF           WASHINGTON : 2020 
 
 
                         
                        


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
ROB PORTMAN, Ohio                    BENJAMIN L. CARDIN, Maryland
TED CRUZ, Texas                      TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia





                               (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator From Florida.....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     5

Madison, Hon. Kirsten D., Assistant Secretary, Bureau for 
  International Narcotics and Law Enforcement, U.S. Department of 
  State, Washington, DC..........................................     6
    Prepared statement...........................................     8

Barsa, Hon. John, Assistant Administrator for Latin America and 
  the Caribbean, United States Agency for International 
  Development, Washington, DC....................................    12
    Prepared statement...........................................    14

O'Reilly, Kevin, Deputy Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State, Washington, DC...    16
    Prepared statement...........................................    18

Balling, Christine, Senior Fellow for Latin American Affairs, 
  American Foreign Policy Council, Washington, DC................    36
    Prepared statement...........................................    38

Marczak, Jason, Director, Adrienne Arsht Latin America Center, 
  Atlantic Council, Washington, DC...............................    39
    Prepared statement...........................................    41

              Additional Material Submitted for the Record

The Committee Received No Response From Mr. Jason Marczak for the 
  Following Questions Submitted by Senator Benjamin L. Cardin....    54


                             (iii)        


U.S.-COLOMBIA RELATIONS: NEW OPPORTUNITIES TO REINFORCE AND STRENGTHEN 
                       OUR BILATERAL RELATIONSHIP

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019

                               U.S. Senate,
 Subcommittee on Western Hemisphere, Transnational 
Crime, Civilian Security, Democracy, Human Rights, 
                         and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio, Risch, Portman, Cardin, Menendez, 
Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good afternoon. Thank you all for being 
here. I appreciate your indulgence. We just came out of a vote, 
so we got a late start here, but I appreciate it.
    This subcommittee meeting on the Western Hemisphere will 
come to order.
    The hearing today is on the U.S.-Colombia relationship, and 
it is entitled ``New Opportunities to Reinforce and Strengthen 
Our Bilateral Relationship.''
    So there are two things I want to achieve with today's 
hearing, which we have been trying to get for some time now but 
that we really want to do. First, obviously talk about the 
U.S.-Colombia relationship--review it, by and large--but second 
and most importantly, restate our commitment and what we can do 
to be helpful to Colombia and to the Colombian people.
    And at the outset, I would say it is impossible to talk 
about Colombia today without talking about Venezuela and the 
destabilizing impacts that that crisis is having, beginning of 
course with over 1.4 million Venezuelan migrants who are now 
living in Colombia, reportedly over $1 billion a year that the 
Colombian Government is now spending on social services and 
health care and the like, and also the threat that is posed, 
the direct threat, to the Colombian state, to peace and 
security in Colombia by armed narcoterrorist elements operating 
with impunity just across the border with the open support and 
cooperation of the Maduro regime. And that poses a threat not 
just to Colombia but ultimately to our security interests and 
to the region at large. Today that safe haven that the regime 
has provided is for two organizations that the State Department 
has designated as foreign terrorist organizations, the FARC and 
its dissident elements that are now there and the ELN.
    So this will be an opportunity to hear from our witnesses 
who will provide an update on the implementation of the so-
called peace accord on the new government now that has been 
there for over close to a year and the political dynamics, the 
direct U.S. interests that are threatened and impacted by what 
is happening there today, and then some ideas about how to 
strengthen our cooperation on all these issues.
    Just some key facts that I want to leave here on the 
record. It is my view that Colombia is our strongest, most 
capable ally in the Western Hemisphere on a series of fronts. 
For me personally, obviously there are many Americans of 
Colombian descent that reside in the United States, including a 
substantial portion of my family since my wife is of Colombian 
descent. But that is not why we are doing our hearing, but 
nonetheless we are. But it is a very vibrant community, very 
engaged and involved.
    Colombia--I know this issue from having been around it even 
predating my public service--has a very long history, a very 
long struggle to restore peace in the country. They have been 
plagued for decades first by very powerful and murderous drug 
cartels, by these Marxist and narcoterror insurgencies. And 
this has been a bipartisan mission under both Republican and 
Democrat administrations to support Plan Colombia and 
Colombian-led initiatives to ensure stability in the country. 
It really began under the leadership of former Colombian 
President Uribe.
    And the important work continues to this day through the 
current administration. The support for the new Duque 
administration is paramount for our cooperation on shared 
diplomatic security, counternarcotics, rule of law, human 
rights, and economic development.
    And so with the combination of the generous support of the 
American people and the incredible work and sacrifices made by 
the Colombian people, Plan Colombia became a model for 
effective and targeted foreign assistance. After many years of 
negotiations with some of these FARC elements, former Colombian 
President Santos, President Duque's predecessor, concluded what 
I personally viewed as--but again, it was not for us to make 
this decision, but what I viewed as a peace accord with 
significant flaws with the largest guerilla organization in 
Colombia, the FARC, which is a terrorist organization. It is 
well known for plotting against the Colombian Government from 
its safe haven in Venezuela, and they are frankly responsible 
for the deaths of Colombian police officers and innocent 
civilians in just the last year. In just the last year, they 
have conducted attacks they have claimed credit for.
    There is another narcoterror group, which I mentioned: the 
ELN. They have over 1,000 fighters inside of Venezuela. And now 
they have been joined by these dissidents of the FARC elements 
who are also operating in the same area right there in the 
border region.
    And so now thousands of ELN and FARC dissident fighters are 
newly re-energized by recent defections from some who were 
cooperating with the peace accord and then defected and, as I 
said earlier, by the open support of the Maduro regime. And 
this presents a very serious security challenge to the region, 
to Colombia, and ultimately to our nation's interests as well.
    Human rights violations against civic leaders are also a 
concern. Both the Inter-American Commission on Human Rights of 
the OAS and the U.N. Office of High Commissioner have reported 
and verified the killings of human rights defenders and social 
leaders.
    I believe President Duque has taken strong steps to ensure 
Colombia remains stable. He has even gone to great lengths to 
preserve aspects of the peace agreement, aspects frankly that 
were favorable to the FARC. Unfortunately, these efforts were 
met with high level defections and a return to narcoterrorism 
for many of the FARC's leaders and followers. So I believe we, 
indeed, are living a critical moment not just for Colombia but 
for the region.
    Earlier this year, I wrote an op-ed that recommended some 
steps that the United States could take to support Colombia and 
the Duque administration specifically that our country should 
provide strong support and financial assistance to continue 
this fight against the illicit flows of cocaine through our 
borders. And this includes things like providing unmanned 
aircraft or drones that can spray coca crops, increasing 
intelligence support to operations targeting these illegally 
armed groups, ensuring additional equipment, funding, and 
training for riverine units.
    I hope that our witnesses today will explain the critical 
nature of these programs and the challenges that they address 
and reassure this subcommittee that assisting Colombia remains 
a top priority for this administration.
    I would like to close by recognizing the significant steps 
taken by the Duque administration not only in welcoming, as I 
said, over 1.4 million migrants fleeing the manmade catastrophe 
created by the Maduro crime family, but also for being a strong 
partner to the United States in the fight against external 
forces that aim to destabilize our region.
    And with that, I now recognize my colleague, the ranking 
member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, let me thank Senator Rubio and his 
wife for this hearing.
    [Laughter.]
    Senator Cardin. This is an important relationship, the 
United States and Colombia. We have invested about $10 billion 
in Plan Colombia. I believe that was a wise investment for U.S. 
interests. We are now moving towards the implementation of the 
peace that eluded us for five decades. And there are many 
reasons why this has been a wise investment to change the 
relationship to a very strong relationship between Colombia and 
the United States.
    First, combating the narcotics traffic. We know that is a 
major challenge. It has been a major challenge. We have ended 
the civil war and implemented an historic peace accord, and 
today Colombia is helping us meet one of the largest migration 
crises in our lifetime from Venezuela.
    In regards to drug trafficking and the trade, progress has 
been made. There is no question about that. But there is still 
a major hub for cocaine production and distribution in our 
hemisphere. And it is, I think, critically important that we 
strengthen the partnership between the United States and 
Colombia to deal with the drug trafficking issues.
    The coca farmers need the tools and training to develop 
alternative sources of income. And when we look at the 
geography where most of these farmers are located, they are 
concentrated in areas that are most vulnerable to armed groups 
responsible for the internal conflict in Colombia. That is 
going to require our support to be able to deal effectively 
with that challenge.
    Implementation of the peace accord, November 2016, five 
decades-long civil war with FARC. The Santos Government 
negotiated an agreement. The Duque government now is charged 
with making sure that it is implemented. Yet, on August 29, a 
faction of FARC has indicated that they would be taking up 
arms. They have not done that yet, but we know that we have to 
be very attentive so we do not go back to the type of violence 
that we saw before the peace accord. This is not going to be 
easy, and it has been made a lot more difficult because of the 
challenges the chairman mentioned in regards to migration from 
Venezuela.
    We do not know the exact count of how many Venezuelans are 
in Colombia. We believe it is around 1.4 million. That is an 
incredible burden to any country, but for a country that is 
struggling in transition like Colombia, it is an incredible 
hurdle to have to overcome. And that number could increase. 
There are indications that as many as 600,000 more could be 
coming in from Venezuela. Clearly, Colombia cannot deal with 
that without a strong partnership from the United States.
    In April, Senator Blunt and I introduced a resolution 
reinforcing our commitment to working in partnership with 
Colombia. This legislation, first and foremost, reaffirms U.S. 
Government support for the Colombian people as they work 
towards peace and stability in the territories previously in 
conflict. It commends the Government of Colombia's progress 
thus far and recognizes the United Nations verification mission 
for its role in implementing the 2016 peace accords and 
disarmament. It asks the Colombian Government to make 
protecting community leaders and human rights activists a top 
priority. And finally, it urges the United States Secretary of 
State to strengthen the U.S.-Colombia partnership by continuing 
our security and the anti-narcotics cooperation, supporting the 
peace accord and its Special Jurisdiction for Peace, and 
contributing to the aid needed to support Venezuelan migrants 
in Colombia.
    I am proud also to co-chair the Atlantic Council's U.S.-
Colombia Task Force with Senator Blunt. I want to thank our 
witness, Jason Marczak, the Director of the Atlantic Council's 
Adrienne Arsht Latin America Center, for his role in bringing 
together this bipartisan, binational, multi-sectoral group to 
increase cooperation and improve outcomes for the goals shared 
between the United States and Colombia. We look forward to the 
release of the U.S.-Colombia Task Force report later this 
month.
    I remain committed to working with my colleagues on both 
sides of the aisle to bolster the U.S. partnership with 
Colombia, increase U.S. engagement on combating narcotics 
production and trafficking, uphold the 2016 peace accords, and 
providing both vulnerable Colombians and Venezuelan refugees 
the critical help they need in Colombia. But also it is 
important for the stability of our own Western Hemisphere.
    I look forward to hearing from the witnesses as we probe 
these issues.
    Senator Rubio. Thank you.
    I will recognize the ranking member of the full committee 
who I know has a keen interest in these items.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I want to thank 
you and Senator Cardin for this incredibly important hearing. I 
do not always come to hearings of the subcommittees of the full 
committee. But in this particular case, the hearing on Colombia 
is of particular importance and interest to me.
    Having traveled to Colombia in July for talks with 
President Duque, his administration, and civil society leaders, 
I remained convinced that Colombia is our single most important 
partner in South America. Our strategic partnership stands as a 
model in the hemisphere.
    So I look forward to hearing from today's panel on our 
long-term vision for strengthening this partnership, as well as 
how we can best support Colombia in addressing current 
challenges, including challenges to its 2016 peace accord, 
challenges related to counternarcotics and from the Venezuelan 
crisis.
    Without a doubt, the recent move by a former FARC commander 
to return to arms marks the single greatest setback to 
Colombia's young peace accord. Press reports indicating that 
this group of FARC dissidents is operating out of Venezuela 
underscores the nefarious nature of Maduro's dictatorship.
    But this development is not the only challenge to accord 
implementation. I am deeply concerned about the violence faced 
by civil society across Colombia. As I heard from Colombian 
social leaders in July, their heartbreaking stories underscore 
the fragility of peace.
    I hope to hear from INL and USAID about how we can best 
support our Colombian partners as they address this violence, 
expand state presence, and implement the accord. And while the 
2016 accord is far from perfect, it is the best opportunity 
that the Colombian people have to heal the scars of decades of 
civil war.
    It is also essential that we remain unwavering in our 
cooperation to help Colombia combat high levels of coca 
cultivation and cocaine production. Historic levels of 
cultivation leveled off this year, and I give that credit to 
the Duque administration. But we have to expand efforts to help 
them drive down these numbers.
    Specifically, I look forward to hearing a comprehensive 
strategy from INL that attacks every aspect of trafficking 
operations, including emphasis on eradication but also 
increased initiatives to strengthen the rule of law and address 
money laundering.
    I also hope to hear how USAID reinforces INL programs and 
Colombian initiatives to create programs for transitioning to 
the legal economy.
    Finally, I am deeply concerned about the destabilizing 
nature of Venezuela's refugee crisis. During my travel to 
Cucuta in July, I heard directly from individuals fleeing the 
humanitarian tragedy in Venezuela and saw its impact on 
Colombian communities. 30,000 people crossing every day, 
Venezuelans crossing every day, on the bridge to get basic 
foodstuffs and essentials that they cannot get in Venezuela. 
But 10 percent of those stay in Colombia every day. It is 
overwhelming for any nation.
    So I commend the administration for dedicating more than 
$300 million across the region to address the Venezuelan 
exodus, but we need to lead a global response. I have been 
advocating a donors' conference that matches the magnitude of 
the crisis.
    And if we want to have any credibility in this process, we 
must provide temporary protected status to Venezuelans in the 
United States. You cannot have a travel advisory that says do 
not travel to Venezuela and then send back people to Venezuela 
who should be here under TPS.
    Let me close by saying I caution that comments like 
President Trump's claim in March that Colombia, quote, ``has 
done nothing for us'' are blatantly false and risk undermining 
our strategic partnership. For two decades, there has been 
bipartisan consensus on supporting Colombia, and I look forward 
to reaffirming that support when I host President Duque in New 
Jersey this weekend.
    With that, I want to thank our witnesses, the chairman, and 
the ranking member. And I appreciate the opportunity.
    Senator Rubio. Thank you.
    We will have two panels. Our first panel is administration 
officials: the Honorable Kirsten Madison, who is the Assistant 
Secretary for the Bureau of International Narcotics and Law 
Enforcement Affairs; the Honorable John Barsa, Assistant 
Administrator for Latin America and the Caribbean at USAID; and 
Mr. Kevin O'Reilly, Deputy Assistant Secretary for the Bureau 
of Western Hemisphere Affairs at the State Department. We will 
begin with you, Ms. Madison. Thank you.

  STATEMENT OF HON. KIRSTEN D. MADISON, ASSISTANT SECRETARY, 
 BUREAU FOR INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Madison. Thank you very much for the opportunity to 
appear before this distinguished subcommittee.
    The drug trade in Colombia directly and adversely affects 
the safety, security, and health of Americans. Colombian 
cocaine contributes to the rising overdose rates in the United 
States, particularly when combined with synthetic opioids. In 
2017, nearly 14,000 Americans died of cocaine overdose, the 
highest on record since 2006, and three-quarters of these cases 
also involved opioids. U.S. foreign assistance to Colombia, and 
every gain made against the production and trafficking of 
cocaine, saves American lives.
    In 2018, the United States and Colombia committed to a 5-
year goal to cut coca cultivation and cocaine production levels 
in half by 2023. Colombia made very early progress in rolling 
back record high coca cultivation and cocaine production levels 
with production levels in 2018 decreasing for the first time 
since 2012, and that is really due to President Duque's 
aggressive counternarcotics policies and courageous work by the 
Colombian police, the military, and teams of civilian 
eradicators. It is also the direct result of our steadfast 
support.
    We have a long road ahead, but I am confident that with 
robust U.S. assistance, the Colombian Government can succeed. 
We have a common goal. We have a plan that is yielding results. 
And most importantly, I think there is political will on both 
sides to tackle this challenge together.
    I was actually on the staff of this committee when Congress 
was considering whether or not to invest and invest big in Plan 
Colombia. In those days, the conversation was about the 
potential for Colombia to become a failed state. How far we 
have come. Security gains under Plan Colombia led to the end of 
the region's longest conflict. The recent call to arms by FARC 
dissidents with strong ties to Venezuela and elsewhere is 
intended to undermine the nascent peace and the security won by 
Colombia's police and military, but I think this should only 
strengthen our resolve to stand by the Colombian people as they 
work to secure a just and enduring peace, a peace that they 
deserve.
    Colombia's narcotics challenge is linked inextricably, I 
think, to the Venezuela crisis. The ELN and FARC dissident 
groups and other transnational organized criminal groups 
operate from within Venezuela. In many cases, these drug 
traffickers and armed groups benefit from the enabling 
environment created by the illegitimate Maduro regime. And I 
think, frankly, that our investments in the strong partnerships 
with Colombia, Peru, and our recent restart of the program in 
Ecuador are critical to counteracting the sort of poisonous 
effect that Venezuela is having on the crime and drug front.
    My written testimony details Colombia's counternarcotics 
successes and developments through the last year, but let me 
highlight a few.
    President Duque quadrupled the civilian manual eradication 
groups from 23 to more than 100 groups and brought the 
cultivation numbers down for the first time since 2012. That is 
a big accomplishment. In the first 6 months of 2019, Colombia 
destroyed 56 percent more coca, nearly 70 percent more coca 
base labs, and 5 percent more cocaine labs than in the same 
period in 2018. In 2019, the Colombian army captured nearly 
2,200 members from the ELN, FARC dissident groups, and Clan del 
Golfo--nearly double the number arrested in 2018.
    INL provides significant support for manual eradication, 
the backbone of President Duque's eradication program. We 
intend to support, if the Colombians decide to proceed, the 
start of a safe and effective Colombian-led aerial eradication 
program following the Colombian Constitutional Court's 
clarification on the issue.
    Frankly, eradication is only part of the solution. The key 
to our success and sustainability is supporting Colombia's 
whole-of-government approach that expands rural governance and 
development across the country. Among other steps to promote 
rural security and governance, INL is constructing rural police 
bases in key narcotics trafficking and historically FARC-
controlled areas and working on professionalization of police 
and on getting them more present in rural areas of the country 
where they can have an impact on the daily lives of ordinary 
Colombians.
    USAID efforts, as my colleague can further attest, are also 
critical in partnership with this. INL's rule of law and rural 
security programs, in tandem with USAID's alternative 
development and land titling activities, are fundamental to 
supporting Colombia's effort to meet the basic needs of rural 
communities and to crowd out criminal actors.
    Alongside our eradication, interdiction, and rural security 
efforts, INL is helping the Colombians to go after the profits 
of criminal groups by working on anti-money laundering training 
and support for managing seized assets. Our investments in 
judicial training and technical assistance can help to build 
Colombia's capacity to prosecute complex crimes, including 
financial crimes, illicit gold mining, and crimes against human 
rights defenders and social leaders. Our efforts to promote the 
rule of law and the protection of human rights in rural areas 
are linked directly to our counternarcotics efforts. It is no 
accident that the killings of human rights defenders are most 
prevalent where you find armed criminal groups and coca growth.
    My January visit to Colombia, days after an attack on the 
Colombian National Police Academy in Bogota that killed 22 and 
left dozens wounded, frankly underscored for me that Colombia's 
efforts to fight back against criminal elements and violent 
actors really comes at a great cost. It also underscored for me 
that our partnership is still very much needed. Reaching our 
shared goal requires Colombia to eradicate coca at 
unprecedented levels, to work with its neighbors, and to 
allocate substantial resources towards counternarcotics, and it 
requires the United States and others to remain engaged and to 
support the effort. Our interests in the region lie in 
Colombia's success, but at its most fundamental level, our 
engagement and support is also essential to stemming the deadly 
flow of drugs to the United States and saving American lives.
    I am going to stop there, and I look forward to your 
questions.
    [The prepared statement of Ms. Madison follows:]

             Prepared Statement of Hon. Kirsten D. Madison

    Chairman Rubio, Ranking Member Cardin, distinguished Members of the 
Subcommittee; thank you for the opportunity to appear before you today 
to discuss the critical importance of our counternarcotics and security 
cooperation with Colombia. Colombia remains one of our closest allies 
in the hemisphere. We have worked together for decades to fight 
narcotics and transnational organized crime, which negatively affect 
both our nations.
    In 2018, the United States and Colombia committed to a 5-year goal 
to cut coca cultivation and cocaine production levels in half by the 
end of 2023. As President Trump recently noted in the Presidential 
Determination on Major Drug Transit or Major Illicit Drug Producing 
Countries for Fiscal Year 2020, Colombia has made early progress in 
rolling back the record-high coca cultivation and cocaine production 
levels. This is result of President Duque's aggressive counternarcotics 
policies and courageous work by the Colombian police and military. It 
is also the result of our steadfast support. According to the most 
recent U.S. government estimates, Colombian coca cultivation and 
cocaine production levels in 2018 decreased for the first time since 
2012, following dramatic increases from 2013 to 2017. We still have a 
long road ahead to meet our ambitious goal and reduce the amount of 
cocaine entering the United States, but I am confident that, with 
robust U.S. support, the Colombian government can reverse the troubling 
trends of the drug threat President Duque inherited just a year ago. We 
have a common goal, we have a plan that is already yielding results, 
and, most importantly, under President Duque's leadership, we share the 
political will to tackle this challenge together.
    I was on the staff of this Committee when Congress was considering 
whether or not to invest--and invest big--in Plan Colombia. In those 
days, the conversation was about the potential for Colombia to become a 
failed state. How far Colombia has come from those days. In the past 
two decades, Colombia transformed from a near-failed state to a vibrant 
democracy with a stable, market-oriented economy. Joint efforts through 
Plan Colombia produced security gains that led to the end of the 
longest conflict in the region's history. Colombia's police and 
military now have model units for the region that export their security 
expertise to other partners, acting as a force multiplier of U.S. 
counternarcotics investment. The recent call to arms by former 
Revolutionary Armed Forces of Colombia (FARC in Spanish) leaders is 
troubling, but these latest actions are intended to undermine the 
nascent peace and security that was won by Colombia's police and 
military and which the Colombian people want and deserve. We need to 
stand by Colombia as they press ahead.
    At the same time, the global narcotics threat has changed 
significantly. Illicit armed groups have adapted and transformed from 
hierarchical, centralized structures to more diffuse, nimble, and 
interconnected transnational networks empowered by modern technology. 
That evolution has made responding to transnational organized crime 
(TOC) harder. Traffickers also exploit encrypted peer-to-peer messaging 
applications and other emerging communication technologies to 
circumvent law enforcement. To ensure the success of our 
counternarcotics investments, we too must adapt. This administration 
has committed resources and energy toward building a resilient whole-
of-government approach to fighting the drug epidemic on all fronts, and 
my dedicated team, the Bureau of International Narcotics and Law 
Enforcement Affairs (INL), is on the frontlines of American diplomacy 
in this effort. In short, we must build on the successes of Plan 
Colombia to address the threats of today and the future.
    The drug trade is not only a threat to Colombia--it directly 
affects the safety, security, and health of Americans. Colombia is the 
world's largest producer of cocaine and the source of over 90 percent 
of the cocaine seized in the United States. Cocaine originating from 
Colombia contributes to the rising drug overdose rates in the United 
States, particularly when combined with synthetic opioids like 
fentanyl. In 2017, nearly 14,000 Americans died of cocaine overdose--
the highest number on record since 2006. Three-quarters of these deaths 
involved opioids.
    U.S. foreign assistance to Colombia and every single gain made 
against the production and trafficking of cocaine saves American lives.
    The Colombian counternarcotics challenge is inextricably linked to 
and made worse by the Venezuela crisis. The National Liberation Army 
(ELN in Spanish) and FARC dissident groups, and other Colombia-based 
TOC groups operate from within Venezuela and use it as a safe haven 
from Colombian law enforcement. TOC groups bribe corrupt Venezuelan 
officials to traffic Colombian drugs through Venezuelan territory, with 
no pushback from the illegitimate Maduro regime. In many cases, these 
drug traffickers and armed groups, benefit from the covert assistance 
of Maduro's corrupt regime. The United States has sanctioned many 
senior Maduro officials for their complicit support of the drug trade, 
arms trafficking, and systemic corruption. Colombian air force radar 
data shows the number of narco-flights originating in Venezuela 
increased from 66 in 2015 to 224 in 2018, with each flight moving 
hundreds of kilos of Colombian cocaine north. At the same time, more 
than 1.4 million Venezuelans who fled the oppressive Maduro regime are 
living in Colombia, placing a significant strain on the Colombian 
government's resources, including those of the security services. Our 
investments in a strong partnership with Colombia, Peru and--most 
recently--the relaunch of our programs in Ecuador are critical to 
countering the poisonous impact of today's Venezuela.
    Colombian drugs fuel the cycle of narcotrafficking violence, 
corruption, and insecurity in Central America and Mexico that 
contributes to the migration crisis on our border. We know Colombian 
drug traffickers forge business relationships with Mexican cartels. 
Most of the cocaine trafficked from Colombia transits Central America, 
and it is a significant contributor to the corruption, weak rule of 
law, and transnational crime plaguing the Northern Triangle, and 
driving migration from those countries through Mexico to the U.S. 
border. We are working with our Central American counterparts to 
address these issues and, importantly, so are the Colombians.
    In President Duque we have a partner who has made combating 
narcotics a top priority for his government, committing resources and 
political capital to achieve our shared goals. To reach the 5-year 
goal, the U.S. government is assisting President Duque to implement his 
whole-of-government counternarcotics strategy that includes reducing 
consumption, decreasing the supply of drugs, dismantling criminal 
organizations, disrupting financial flows to criminal organizations, 
and increasing state presence and economic opportunity in rural areas. 
The Colombian government will focus efforts in five strategic zones: 
Catatumbo in Norte de Santander; Tumaco and the Pacific Coast in 
Narino; the Bajo Cauca region of Antioquia; Arauca department along 
Colombia's border with Venezuela; and Caqueta department in southern 
Colombia. These priority regions account for 65 percent of the 
country's coca cultivation and cocaine production.
    With INL assistance, President Duque has significantly increased 
Colombia's eradication efforts. Since taking office in August 2018, 
President Duque quadrupled the number of highly efficient civilian 
manual eradication groups from 23 to 100. Thanks to this surge, 
Colombia eradicated more than 86,000 hectares of coca in 2018, the 
highest amount of hectares eradicated since 2012. This massive effort, 
achieved with INL assistance, stopped the expansion of coca cultivation 
for the first time since 2012. Eradication progress continues into 
2019. Colombia destroyed 56 percent more coca in the first 6 months of 
2019 than during the same period in 2018. In addition to our critical 
aviation support, INL provides Colombian eradicators with logistics, 
field equipment, supplies, and life-saving counter improvised explosive 
device (IED) training and detectors.
    On July 18, Colombia's Constitutional Court gave the Colombian 
government the authority to restart aerial spray of glyphosate on coca 
once it meets certain administrative and oversight conditions. The 
unanimous decision assigns responsibility to the government's National 
Drug Council (CNE) to weigh any potential risks of glyphosate on health 
and the environment against its responsibility to reduce record levels 
of coca cultivation. In light of the court's decision and at the 
request of the Duque administration, INL will work with the Colombian 
government to restart a targeted, Colombian-led aerial eradication 
program that meets the administrative and oversight conditions upheld 
by the court. Aerial eradication is not a silver bullet, but it is an 
effective and safe tool that along with manual eradication, crop 
substitution, alternative development, and expanded police presence can 
help Colombia sustainably reduce cocaine production. Colombia's earlier 
reduction of coca cultivation, between 2007 and 2012, was due in large 
part to sustained, high levels of both manual and aerial eradication. 
Unlike Plan Colombia, the U.S. government will only play a supporting 
role in a potential Colombian-led aerial eradication program, and INL 
will continue to support manual eradication as the backbone of 
Colombia's integrated eradication strategy.
    Under President Duque, Colombian police and military forces 
continue to interdict incredible amounts of cocaine and destroy record 
number of labs. In 2018, Colombian and third-country security forces 
using Colombian intelligence interdicted more than 450 metric tons of 
pure cocaine and cocaine base. INL is helping the Colombian Navy build 
and operate a chain of radar stations that provide key intelligence to 
support interdiction operations along Colombia's Pacific coast, the 
departure point for the majority of U.S.-bound cocaine according to the 
Drug Enforcement Administration. INL is also supporting the expansion 
of interdiction operations along Colombia's rivers, particularly in the 
remote and high-coca-growing area of Narino. Over the last 6 months, 
with INL support, Colombian National Police (CNP) launched Operations 
Resplandor I, II, III, and Osiris, which collectively destroyed more 
than 821 base labs, 25 cocaine labs, and six precursor production labs. 
According to official Colombian government statistics, through July, 
Colombian forces have destroyed 68 percent more base labs and 5 percent 
more cocaine labs than during the same period in 2018.
    With U.S. assistance, Colombia also leads a powerful regional 
approach to maritime interdiction, producing impressive results by 
leveraging resources throughout the region. Since April 2018, Colombia 
has led three multi-national maritime interdiction operations resulting 
in the seizure of nearly 100 metric tons of cocaine. During Orion 3, 
the first of these operations planned under President Duque in the 
spring of 2019, the Colombian navy led 18 partner navies, and leveraged 
U.S. contributions from INL, the U.S. Coast Guard, and Joint 
Interagency Task Force South (JIATF South), that resulted in the 
seizure of 48 metric tons of cocaine--a jump of 160 percent from the 
previous operation just 4 months prior.
    The Colombian government continues its rigorous pace of high-value 
target operations against transnational criminal organizations (TCOs). 
In 2019, the Colombian army alone captured nearly 2,200 members from 
the ELN, FARC dissident groups, and Clan del Golfo, nearly double the 
number arrested in 2018. In May, the CNP captured Olindo Perlaza, alias 
Gafas, for trafficking narcotics from Colombia's Pacific coast through 
Panama, Guatemala, and Mexico to the United States. Colombian police 
say Perlaza, who is wanted for extradition to the United States, had 
the capacity to ship four tons of cocaine a month, in collaboration 
with the Sinaloa Cartel.
    Beyond counternarcotics and law enforcement operations, INL is 
helping the Colombians follow the money. Our assistance helps the 
Colombian government go after the profits of criminal groups by 
providing anti-money laundering training and support for managing 
seized assets. Criminal groups often control areas where illegal gold 
mining occurs and use illegal gold to supplement profits from 
narcotrafficking and other illicit activities. INL-trained Colombian 
investigators built cases against Colombia's two largest gold companies 
for laundering a total of $1.4 billion in illicit revenue, according to 
the Colombian Attorney General's Office. The Colombian investigators 
credited INL training with improving their capacity to trace hidden 
sources of illegal money and gold. INL supports the Colombian 
government's efforts to liquidate thousands of seized properties 
throughout the country, which will generate millions of dollars to 
bolster Colombia's counternarcotics resources.
    These impressive counternarcotics efforts led to the decrease in 
coca cultivation and cocaine production for the first time in 5 years, 
but bringing the coca numbers down is just one step. The key to our 
long-term success in Colombia will be the implementation of a whole-of-
government approach that helps sustain our near-term operational 
counternarcotics results by expanding rural governance and development. 
The absence of criminal justice institutions and police in key areas of 
the country creates a permissive environment for coca cultivation and 
drug trafficking, enabling criminal groups to thrive by generating 
insecurity and preventing long-term licit economic development. Without 
long-term support for citizen security and licit livelihoods, our 
short-term gains on eradication and interdiction will not last.
    USAID efforts are critical in this regard, as are Colombian and 
other international donor investments. INL's rule of law and rural 
security programs, working in tandem with USAID's alternative 
development and land titling activities, are fundamental in helping the 
Colombian government meet the basic needs of rural communities. Poor 
infrastructure in rural areas makes logistics of accessing markets an 
enormous obstacle. Willingness alone is not sufficient to overcome 
development challenges. Communities need roads, business and vocational 
training, and technological advances.
    To promote rural security in Colombia and sustain counternarcotics 
results, INL is supporting the construction of three rural police bases 
in key narcotrafficking and historically FARC-controlled areas in 
Antioquia, Caqueta, and Guaviare, with other expansion sites planned 
for the coming years. INL supports the CNP stationed in critical rural 
narcotrafficking areas with training and other technical assistance to 
enable the police and local communities to jointly address the root 
causes of criminal activity and resist the influence of criminal 
organizations. A component of this effort is the integration of women 
into citizen security and development. In June, the United States and 
Colombia launched the U.S.-Colombia partnership on women, peace, and 
security recognizing the pivotal roles Colombian women have played in 
overcoming conflict, building security, and investing in peace and 
economic prosperity. The Department will support this initiative 
through a range of efforts, including INL assistance focused on helping 
the Colombian National Police recruit more women into its ranks from 
underserved communities.
    To expand access to justice in Colombia and protect human rights, 
INL is investing in training and technical assistance across the 
justice sector to build Colombia's professional capacity to investigate 
and prosecute complex crimes. INL is increasing its support to the 
Colombian government to address human rights violations, including 
prosecuting those who threaten and commit crimes against human rights 
defenders and social leaders. Our efforts to promote rule of law and 
the protection of human rights in rural areas are directly linked with 
our counternarcotics efforts. The killings of human rights defenders 
are most prevalent where you find armed criminal groups and coca 
growth.
    Finally, through the U.S.-Colombia Action Plan (USCAP) on Regional 
Security Cooperation, Colombia exports its hard-won security expertise 
to partners in the hemisphere. Each year, INL supports more than 300 
USCAP activities implemented by the CNP and the Colombian Navy in 10 
partner countries along key narcotrafficking routes for cocaine 
destined for the United States. Beyond training, this program is 
creating regional law enforcement connections that reinforce our 
broader efforts against transnational criminal networks.
    Transnational problems need transnational solutions. As our 
strongest counternarcotics partner in the region, Colombia has the 
capability and political will to lead a new counterdrug network for the 
Americas.
    My January visit to Colombia days after an attack on a Colombian 
National Police Academy in Bogota that killed 22 people and left dozens 
wounded reminded me that security and justice do not come cheaply. 
Besides Colombia's significant financial investment in 
counternarcotics, Colombian soldiers, police, and eradicators continue 
to put their lives on the line. In 2019, IEDs have killed nine and 
wounded 49 eradicators, the same number of deaths and casualties for 
all of 2018. Despite the cost, during my visits to Colombia and 
subsequent meetings with senior Colombian officials in Washington, I am 
encouraged by the unwavering commitment to achieve our ambitious 5-year 
goal from the highest level of the Colombian government to the 
campesino manual eradicator risking his life to remove coca from some 
of the most dangerous terrain in Colombia.
    Chairman Rubio, Ranking Member Cardin, distinguished Members of the 
Subcommittee, we have not even completed the first full year of our 5-
year goal to reduce coca cultivation and cocaine production by half by 
the end of 2023, and Colombia is already demonstrating significant 
results. I cannot emphasize enough the enormity of the task. The 
Colombian government is facing serious challenges: near record high 
coca cultivation and cocaine production levels inherited from the 
previous administration, the implementation of a complex 310-page peace 
plan that touches every sector of Colombian society, and strained 
resources due to the Venezuela crisis. Reaching this goal will require 
Colombia to eradicate coca at unprecedented rates, to work with 
neighboring countries throughout the region to combat agile and 
resourceful criminal networks, and to continue to allocate substantial 
resources toward counternarcotics. We will continue to encourage the 
Colombian government and other donor countries to do more, but we must 
also continue robust U.S. support for our Colombian partners in a joint 
effort to prevent deadly drugs from reaching the streets of the United 
States.

    Senator Rubio. Thank you very much.
    Before I turn to you, Mr. Barsa, I wanted to just 
acknowledge the chairman of the committee was here for a few 
moments, and I want to thank him for coming by as well.
    Mr. Barsa, thank you for joining us.

STATEMENT OF HON. JOHN BARSA, ASSISTANT ADMINISTRATOR FOR LATIN 
      AMERICA AND THE CARIBBEAN, UNITED STATES AGENCY FOR 
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Barsa. Thank you very much. Chairman Rubio, Ranking 
Member Cardin, and members of the subcommittee, thank you for 
the invitation to testify today. I appreciate this 
subcommittee's support for USAID's work in Colombia and 
throughout Latin America and the Caribbean. USAID's work in 
Colombia advances U.S. national security and prosperity with 
programs that further a just and sustainable peace, improve 
rural economic development and citizen security, promote the 
growth of licit economies, and help the country support the 
influx of Venezuelan migrants.
    As Administrator Mark Green said during one of his recent 
trips to Colombia, ``There is no more important relationship in 
this hemisphere.'' I completely agree, which is why last month 
I chose to visit Colombia as my first international trip.
    On that trip, I was able to witness firsthand USAID's work 
with the Government of Colombia, civil society, and the private 
sector. I met with key members of President Duque's 
administration as well as a number of Colombia's courageous 
social leaders, including leaders of ethnic and minority 
groups. I also had an opportunity to meet with Venezuelan 
migrants and Colombian returnees, many who had just fled the 
horror taking place inside Venezuela. Each Colombian official I 
met with reiterated the Duque's government commitment to a 
strong relationship with the United States, and in each of my 
meetings, I underscored USAID's commitment to helping Colombia 
advance on the journey to self-reliance and solidify a long-
lasting peace.
    USAID is collaborating closely with the Duque 
administration to promote licit economies, inclusiveness, 
reconciliation, and stability. To foster licit livelihoods, 
USAID promotes alternative development, increases financial 
inclusion, and addresses land tenure. A few months ago, 
Administrator Green and President Duque launched a historic 
massive land titling program, and just 2 weeks ago, the program 
announced the distribution of 1,000 land titles, a milestone in 
peace implementation.
    These activities promote stability by giving young people 
better opportunities, to discourage them from joining 
transnational criminal organizations, providing former 
combatants with legal economic opportunities and better 
futures.
    At USAID, we believe that sustainable development must 
include robust participation from the private sector, and we 
work to leverage private sector funds to maximize our impact.
    We also work to grow the private sector. USAID helps 
Colombians in rural areas to find legal economic opportunities, 
especially in those regions affected by violence and illegal 
activity. For example, USAID helps entrepreneurs and small 
producers of products like cacao and coffee improve their 
products and connect to local and international markets.
    While we work to foster licit economies, we know that no 
sustainable development or lasting peace can occur without the 
full inclusion of Afro-Colombians, indigenous, and other ethnic 
groups. I was pleased to hear directly from President Duque's 
High Commissioner for Stabilization Emilio Archila that the 
Colombian Government is in agreement with this important point.
    I am concerned about reports of human rights defenders 
being targeted and can assure you that the protection of human 
rights defenders and social leaders is a priority for USAID and 
the U.S. embassy in Bogota. To address these human rights 
issues, USAID programs promote respect for the rule of law, 
support state and civic actors that provide collective and 
individual protection, and strengthen the Government of 
Colombia's capacity to respond to incidents of violence.
    We are also committed to fostering greater social and 
economic inclusion of Afro-Colombians and indigenous 
communities as a means of advancing peace and reconciliation in 
Colombia.
    Another critical imperative of Colombia's peace is 
reconciliation among victims, ex-combatants, and other 
citizens. The Colombian conflict and associated violence 
created a tragic legacy of millions of victims. USAID is 
collaborating closely with the Duque administration to build 
the capacity of key government institutions charged with 
delivering services and transitional justice to these victims 
as mandated by Colombian law. On my trip, I had the opportunity 
to meet with leaders from the USAID-supported Truth Commission 
and the Unit to Search for Disappeared Persons to discuss the 
strategies, challenges, and impacts that these two main 
institutions are making in the reconciliation process. We must 
continue to support Colombia's path towards a sustainable and 
stable peace.
    As you mentioned, Mr. Chairman, it is impossible to discuss 
Colombia without discussing the impact of the Venezuelan 
migrants. This manmade, regime-driven tragedy has forced more 
than 4.3 million to flee Venezuela. More than 1.1 million of 
these people are in Colombia right now. When I visited the city 
of Cucuta last month on the Colombian-Venezuelan border, I saw 
firsthand the dire humanitarian effects this crisis is having 
on Colombians and Venezuelans alike.
    To help the region cope with this manmade crisis, the 
United States has provided nearly $377 million since fiscal 
year 2017, $213 million of which is to respond to the crisis in 
Colombia.
    We salute Colombian President Duque, who has served as a 
regional leader in this response, and we thank other countries 
in the region for their support for the Venezuelan people and 
the legitimate government of Interim President Juan Guaido.
    We continue to call upon other donors to make or increase 
contributions to help address the crisis in Venezuela, and we 
are also particularly grateful to Congress for your bipartisan 
support on this issue.
    In conclusion, USAID is prepared to continue to help 
Colombia address its most pressing challenges and secure 
lasting peace.
    Mr. Chairman, members of the subcommittee, thank you again 
for your commitment to USAID and to our work in Colombia. I 
look forward to your questions.
    [The prepared statement of Mr. Barsa follows:]

                 Prepared Statement of Hon. John Barsa

    Chairman Rubio, Ranking Member Cardin, and Members of the 
Subcommittee, thank you for the invitation to testify today. I 
appreciate this Subcommittee's support for USAID's work to advance U.S. 
national security and prosperity through programs in the Republic of 
Colombia that further a just and sustainable peace, promote rural 
economic development, promote the growth of licit economies and help 
the country support the influx of Venezuelan migrants.
    As Administrator Mark Green said during one of his recent trips to 
Colombia, ``There is no more important relationship [for the United 
States] in this Hemisphere.'' I completely agree with Administrator 
Green, which is why, as USAID's Assistant Administrator for the Latin 
America and Caribbean Bureau, I chose to make Colombia the destination 
for my first international trip last month.
    During my August trip, I witnessed USAID's work with the Government 
of Colombia in a number of different sectors. I also met with key 
members of President Ivan Duque's administration, including Vice-
President Marta Lucia Ramirez,Vice, Minister of Health Ivan Dario 
Gonzalez, Presidential Border Manager Felipe Munoz, High Commissioner 
for Security Rafael Guarin, and Presidential Advisor for Stabilization 
and Consolidation Emilio Jose Archila. I also met a number of 
Colombia's courageous social leaders, including from ethnic and 
minority groups.
    Each Colombian official reiterated the Duque Government's 
commitment to a strong relationship with the United States. In each of 
these meetings, I underscored USAID's commitment to helping Colombia 
advance on the Journey to Self-Reliance and solidify a long-lasting 
peace.
    To understand USAID's approach in Colombia, it is essential to 
understand the country's over five decades of violent conflict. Despite 
this tumultuous history, the country has made significant strides. 
USAID is collaborating closely with the Duque administration on a 
multi- sectoral approach that promotes licit economies, inclusiveness, 
reconciliation, and stability.
    For example, USAID takes several approaches to foster licit 
livelihoods for Colombians, including promoting alternative 
development, increasing financial inclusion and addressing land tenure. 
All of these activities aim to promote stability, whether it is giving 
young people better opportunities to discourage them from joining 
transnational criminal organizations, or providing former combatants 
with legal economic opportunities and better futures.
    We remain concerned about reports that human-rights defenders are 
being targeted. The protection of human rights defenders and social 
leaders is a priority for USAID and the U.S. Embassy in Bogota. USAID 
uses a holistic, cross-sectoral strategy to address the situation that 
confronts human-rights defenders by promoting respect for the rule of 
law, dignity, and fundamental freedoms; preventing abuses; and 
strengthening the Government of Colombia's capacity to respond.
    In 2016, we launched our Inclusion for Peace (IPA) activity, with 
the aim of fostering greater social and economic inclusion of Afro-
Colombians and indigenous communities as a means of advancing peace and 
reconciliation in Colombia. By 2020, we expect that this initiative 
will have provided 12,000 individuals from these marginalized 
communities access to formal job opportunities. In addition to IPA, 
USAID has focused engagement with Afro-Colombian and indigenous 
communities through several other activities, including the Fulbright 
and Martin Luther King, Jr., fellowships.
    We also seek to bring other partners to the equation. At USAID, we 
believe that sustainable, economic empowerment--all development--must 
include robust participation from the private sector. Private sector 
leadership is essential to kick-start economic growth and lower social 
and economic inequality. The private sector offers technologies, 
innovation, expertise, and networks that can advance our development 
goals and those of the Colombian people. The private sector also offers 
significant resources. In Colombia, we leveraged nearly $163 million in 
private sector funds in Fiscal Year (FY) 2018 and the first half of FY 
2019.
    My first official event in Colombia was in support of USAID's Rural 
Financial Alliance, a compelling example of how we want to implement 
our Private Sector Engagement Policy. For years, USAID has been helping 
people in Colombia's rural areas to find legal economic opportunities, 
especially in those regions affected by violence, drug trafficking, 
illegal mining and armed groups. We have helped entrepreneurs and small 
producers in cacao, coffee, dairy, rubber, and beekeeping to improve 
their products, and connected them to local and international markets.
    But even as they have found success in these ventures, the people 
in these regions have lacked access to the financial services that 
would solidify their progress and grow their businesses.
    Since 2015, USAID has co-invested with the private sector under the 
Rural Financial Alliance to provide these critical services in 197 
target municipalities. With support from USAID, financial 
intermediaries have channeled $848 million in financial services to 
those 197 prioritized municipalities. These financial services are 
mainly productive credits, savings accounts, and micro-insurance--
essential tools that are now helping Colombians in rural areas thrive. 
It is these types of results that exemplify how critical engagement 
with the private sector is to finding, financing, and implementing 
lasting solutions.
    One crucial program has a particularly relevant role across 
multiple sectors: land tenure. USAID and the Duque administration have 
worked together on the formalization of land titles, which is central 
to addressing inequality in rural areas, promoting socio-economic 
development and licit economic growth, and advancing peace-building 
efforts. To signify both countries' commitment to this important issue, 
in May, President Duque and Administrator Green signed a joint 
statement of support to encourage the completion of the Mass Land 
Formalization and Cadaster pilot being developed in the municipality of 
Ovejas, in Sucre Department. This past August, the program delivered 
its first 1,000 land titles to Colombians who participated, a historic 
milestone in implementation of the peace accords.
    The Ovejas pilot is an unprecedented initiative in Colombia that 
seeks to offer viable and proven solutions to the country's land 
problems by reducing both the time and costs associated with the 
formalization of clear property rights, especially in the most 
conflict-affected regions.
    Not only does proper land tenure help stabilize communities and 
decrease conflict, it also promotes licit livelihoods. We have seen 
that without legal land title, more than 75 percent of former coca 
growers return to the illicit economy, whereas when they have clear 
title, the rate of recidivism drops to less than 25 percent.
    Another critical imperative of Colombia's peace process is 
reconciliation among victims, ex-combatants, and other citizens. The 
Colombian conflict and associated violence created a tragic legacy of 
millions of victims, including those forcibly displaced from their 
homes, land, and communities. USAID is collaborating closely with the 
Duque administration to build the capacity of key institutions in the 
Colombian government charged with delivering services, reparations, and 
transitional justice to these victims as mandated by Colombian law.
    For example, I had the opportunity to meet with the Truth 
Commission and the Unit to Search for Disappeared Persons, both of 
which have received funding from USAID to support engaging victims, 
civil society, and justice officials in the processes and dialogues of 
the Truth Commission.
    During my meeting with the President of the Truth Commission, 
Father Francisco de Roux, and Luz Marina Monzon, Director of the Unit 
to Search for Disappeared Persons, we discussed the strategies, 
challenges, and impacts that these two main institutions are making in 
the reconciliation process. This process is not easy, and there will be 
many challenges along the way.
    As reported in the press, a former commander of the Revolutionary 
Armed Forces of Colombia (FARC) recently called on his followers to 
take up arms against the Colombian Government.
    This is a grim reminder that after decades of armed conflict, it 
remains necessary to keep supporting Colombia's path toward a 
sustainable and stable peace. The reintegration of former FARC members 
into Colombian society is crucial to this reconciliation process as it 
breaks the cycle of violence and criminality. USAID will not be 
deterred from promoting peace and encouraging a culture of legality.
    Colombia is the focus of today's hearing, but I would be remiss not 
to mention the Venezuela regional crisis. Venezuela is experiencing a 
man-made, regime-driven political and economic crisis that has led to 
severe shortages of food and medicine and has driven more than 4.3 
million people to flee their once-prosperous country since 2014.
    This outflow of vulnerable Venezuelans is straining healthcare, 
education, and other social services in neighboring countries, 
especially Colombia. When I visited the city of Cucuta on the Colombia-
Venezuela border last month, I saw firsthand the dire humanitarian 
effects this crisis is having on Colombians and Venezuelans alike.
    It was during this visit that I also fully recognized the 
generosity of the Colombian people and the Duque administration for 
their continued support for and hospitality toward Venezuelans who have 
fled the tyranny and chaos in their country. The stories I heard from 
migrants about living conditions inside Venezuela created by the 
devastating and corrupt policies of the former Maduro regime were truly 
shocking.
    To help the region cope with this man-made crisis, the United 
States has provided nearly $377 million--including nearly $334 million 
in humanitarian aid and $43 million in economic and development 
assistance--since FY2017. Of this amount, $213 million has been for 
Colombia--$37.1 million in development assistance and $175 million in 
humanitarian assistance.
    We salute Colombia and President Duque, who has served as a 
regional leader on this response, and we thank the other countries in 
the region for their support for the Venezuelan people and the 
legitimate Government of Interim President Juan Guaido. We continue to 
call upon other donors to make or increase contributions to help 
address the crisis in Venezuela. We are also particularly grateful to 
Congress for your support on this issue.
    The partnership between the U.S. and Colombian Governments reaps 
dividends on both sides. USAID's projects work best when governments, 
civil society, and the private sector in host countries also invest in 
our programming. The Duque administration has been an excellent partner 
in our joint cooperation. USAID is prepared to continue to help 
Colombia address the country's most-pressing challenges, advance 
Colombians' progress along the Journey to Self-Reliance and secure a 
lasting peace.
    Mr. Chairman, Members of the Subcommittee, thank you again for your 
commitment to USAID and to our work in Colombia. I look forward to your 
questions.

    Senator Rubio. Thank you.
    Finally, Mr. O'Reilly.

STATEMENT OF KEVIN O'REILLY, DEPUTY ASSISTANT SECRETARY, BUREAU 
   OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. O'Reilly. Chairman Rubio, Ranking Member Cardin, 
members of the subcommittee, thank you for convening this 
hearing.
    Colombia is indeed our highest performing and most 
cooperative partner in Latin America, and we built this 
partnership on shared values and common and vitally important 
shared interests. This is the fruit of decades of U.S. 
attention and bipartisan congressional support. Your intense 
engagement has been and will remain vital to our success.
    Americans and Colombians work together to make both 
countries safer and more prosperous. We are working together to 
expand cooperation on security and support Colombian efforts to 
slash coca cultivation and cocaine production, promote human 
rights and democracy, and support Colombia's implementation of 
the peace accord, and expand economic opportunity and free, 
fair, and reciprocal trade. In short, we face common challenges 
together.
    That includes helping Venezuelans recover the democratic 
rights enshrined in their own constitution, rights honored by 
Venezuelan Interim President Juan Guaido and treated with 
contempt by Nicolas Maduro.
    Colombia is a strong democracy and a vibrant economy. It is 
a diplomatic leader in the Americas. It aggressively confronts 
terrorists and criminals within its borders, and it helps train 
security services across the region. For two decades, Colombian 
authorities kept up sustained pressure on FARC criminals and 
terrorists. We take pride in having supported those efforts 
that brought the FARC to the negotiating table, producing the 
peace accord that ended a 52-year insurgency. And Colombia has 
made real progress on implementation, disarming nearly 7,000 
guerillas.
    This complex agreement touches nearly every Colombian 
institution. Making it all work represents a huge challenge and 
an admirable commitment to peace. Colombia faces its hardest 
challenges where government presence remains weak. Killings of 
social leaders often in these rural communities most afflicted 
by crime concerns us deeply. We need to remain engaged to help 
Colombia defeat the illegal armed groups seeking to fill 
vacuums left behind by the demobilized FARC. We must ensure 
that human rights protections remain foundational in everything 
we do in support of Colombia's transformation.
    So-called FARC dissidents have scoffed at peace, continuing 
to break the law, and traffic drugs. Now a few former FARC 
leaders have quit the peace accord, returning to terrorism, 
violence, and criminality. The most notable among them all were 
and all remain deeply immersed in the coca/cocaine economy. We 
are confident that Colombian justice can and will hold to 
account those who follow that path, and when they break U.S. 
law, we reserve the right to seek their extradition.
    Colombian authorities and the FARC political party have 
repudiated those who call for a return to violence and crime. 
Outlaws such as Ivan Marquez and Jesus Santrich joined the ELN 
and other terrorists and criminals on the wrong side of 
history, on the wrong side of the law.
    Assistant Secretary Madison has spoken about our 
counternarcotics cooperation. I can only reiterate that we are 
working exceptionally well with the Duque administration and 
our Colombian counterparts.
    The crisis in Venezuela remains a significant threat to 
Colombia and to the region. And Colombia carries the greatest 
burden of all. More than 3 percent of the population of 
Venezuela, those 1.4 million souls, resides in Colombia, a 
statistic that should but will not make even Nicolas Maduro 
hang his head in shame.
    We have been deeply involved in the efforts to address that 
crisis. Since fiscal year 2017, we have provided nearly $214 
million to help Colombia respond to the influx, in addition to 
support provided elsewhere in the region.
    In facing Colombia's challenges, we must never lose sight 
of Colombia's progress. Greater security and greater economic 
opportunity, an ever more robust democracy, all serve our own 
national interests in a secure, prosperous, and reliable 
partner.
    Chairman Rubio, Ranking Member Cardin, members of the 
subcommittee, congressional support has been instrumental in 
the success of the past 20 years. It remains the foundation of 
our successful partnership with the people and the democratic 
institutions of Colombia. Thank you, and I too look forward to 
your questions.
    [The prepared statement of Mr. O'Reilly follows:]

                  Prepared Statement of Kevin O'Reilly

    Chairman Rubio, Ranking Member Cardin, Members of the Subcommittee, 
thank you for convening this hearing.
    Colombia is our highest performing and most willing partner in 
Latin America. Together we have built a partnership based on shared 
values and shared interests, and our interests there are among the most 
important in the entire hemisphere. This administration highly values 
the excellent relationship we have with President Ivan Duque and his 
government.
    Today's robust partnership with Colombia is the fruit of decades of 
U.S. attention to this relationship, including the bipartisan support 
here in the United States Congress. Your intense engagement with 
Colombia has been, and will remain, a critical contributor to our 
success.
    Americans and Colombians work together to make both the United 
States and Colombia safer and more prosperous, while adhering to our 
values. We support Colombian efforts to expand cooperation on security 
and counternarcotics. This includes helping Colombians implement their 
programs to slash coca cultivation and cocaine production, as well as 
our robust partnership to dismantle criminal organizations. We work 
together to promote human rights and democracy in Colombia and to 
implement the 2016 peace accord, despite the recklessness of so-called 
FARC dissidents who have abandoned the commitments they made to the 
Colombian people and to the international community. We work with 
Colombia to expand economic opportunity and free, fair, and reciprocal 
trade. In short, we face common challenges together.
    Our cooperation extends, and we cannot emphasize this enough, to 
our shared efforts to help the people of Venezuela recover and fully 
exercise the democratic rights enshrined in their own constitution, a 
constitution honored by Venezuelan interim president Juan Guaido and 
trampled underfoot by Nicolas Maduro. We continue to support Colombians 
as they and their government have received with immense generosity the 
many Venezuelans displaced by the corruption, cruelty, and 
mismanagement of Maduro and the crisis he has generated in their 
homeland.
    We remain Colombia's economic partner of choice, and the U.S.-
Colombia Trade Promotion Agreement continues to generate opportunities 
for economic growth and employment in both countries. Importantly, we 
registered a trade surplus with Colombia in 2018. U.S. companies 
increasingly see Colombia as a promising investment destination, and we 
are attracting Colombian capital to the United States.
    Colombia is, in many ways, a model for the region--a strong 
democracy and an economic powerhouse. It aggressively confronts crime 
and terrorism within its borders and exports security training. 
Colombia is a diplomatic leader in the Americas. We intend to continue 
supporting the inclusive democratic institutions so crucial to 
advancing peace, security, and prosperity in Colombia and its 
neighbors.
    For two decades, the Colombian government maintained sustained 
pressure on the FARC, a criminal and terrorist organization, and we 
take pride in having lent our hand to those efforts. That pressure 
helped bring the FARC to the negotiating table, resulting in the 2016 
peace accord that ended a 52-year insurgency. The sacrifice and heroism 
of many in Colombia's security forces--and prosecutors and judges too--
helped bring this about. Since the signing of the accord, the Colombian 
government has made real progress on implementation, and nearly 7,000 
guerrillas have disarmed. The Colombian congress passed important 
implementing legislation, three transitional justice institutions have 
started work to address conflict related crimes and abuses, and two 
United Nations political missions have deployed to verify FARC 
disarmament, reincorporation, and security guarantees. On September 12, 
the United States and other U.N. Security Council members voted to 
extend the current U.N. Verification Mission mandate for another year, 
as requested by President Duque. The council's unanimous approval 
signals the international community's continued strong support for 
peace in Colombia.
    Violence continues, but nationwide security indices have clearly 
improved. The Duque administration has accelerated efforts to approve 
individual and collective development projects that support 
reincorporation of ex-combatants, implemented land titling and 
registration programs, and enrolled approximately 95 percent of ex-
combatants in healthcare.
    This vastly complex peace accord--among the most intricate, 
multifaceted, and rigorous agreement of its kind--touches nearly every 
institution in Colombia, and the country is in just year three of what 
the negotiating parties saw as an initial 15-year timeline for 
implementation. Making all the pieces fit, making it all work, 
represents a huge challenge, and an admirable commitment to peace by 
the people of Colombia.
    Still, the University of Notre Dame's Kroc Institute for 
International Peace Studies considers implementation now underway for 
70 percent of the accord's provisions, a level comparable to other 
successful peace processes. The Department of State funds these Kroc 
Institute efforts to monitor implementation, resources available to us 
because you in Congress have appropriated them. We see this as a 
valuable part of our sustained effort to support Colombians as they 
work to establish a just and lasting peace for themselves, a way to 
help them identify and address implementation challenges.
    Implementation does face challenges, particularly where government 
presence remains weak. The killing of social leaders, often in the 
rural communities most afflicted by crime and narcotrafficking, concern 
us deeply. We recognize the importance of continued engagement to help 
Colombia defeat the illegal armed groups seeking to fill vacuums left 
behind by the demobilized FARC. Helping extend security and state 
presence in rural areas can make these regions and those who live in 
them more secure and prosperous, and deny these spaces to criminals, to 
narcotics traffickers. Of course, this requires a sustained commitment, 
and resources.
    So-called FARC dissidents--FARC guerrillas who rejected the accord 
and retained their control of various illegal economies, notably 
drugs--have been a problem since the signing of the accord. More 
recently, a few former leaders of the FARC chose to abandon the FARC's 
peace accord commitments and return to terrorism, violence, and 
criminality.
    The most notable among them all were and all remain deeply immersed 
in the coca-cocaine economy. We strongly repudiate their actions, and 
the peace accord makes clear that those who commit serious crimes after 
the signing of the accord can and will be held accountable to the full 
extent of the law, including the possibility of extradition as 
appropriate. Importantly, both the Colombian government and the FARC 
political party have rejected this call by a small group of individuals 
to return to violence and crime and have reiterated their commitments 
to peace.
    Writing in the Washington Post on September 3, President Duque 
explained that, ``Colombia stands united in the face of a small number 
of criminals who want to sidetrack the historic transformation that is 
underway.'' We stand resolutely with Colombia and its efforts to secure 
the peace.
    Colombians know that to implement the peace accord successfully 
they must also confront narcotics production and trafficking and help 
Venezuelans resolve the crisis that has cast Venezuela itself into 
chaos and threatens to destabilize the region.
    You will hear from Assistant Secretary Madison about our efforts to 
strengthen counternarcotics cooperation. Our governments are pursuing a 
comprehensive approach, including eradication, interdiction, law 
enforcement cooperation, extraditions, and integrated rural development 
so families immersed in the coca economy can have a legal, decent way 
to make a living. In 2018, we agreed with Colombia to work together to 
cut coca cultivation and cocaine production by half by the end of 2023, 
and we have already seen the Duque administration follow through on 
this commitment. We know that they will need unity of effort across 
their security and civilian agencies, and our continued cooperation and 
support, to drive down cultivation and production, and that doing so 
can enhance the health and security of us all.
    As for restart of aerial eradication, we recognize that Colombia 
itself must make that call, but we've seen it work in the past and 
we're confident that it could work in the future. At the request of the 
Duque administration, we will work with the Colombian government to 
restart a targeted, Colombia-led aerial eradication program as part of 
a broader comprehensive approach.
    The political, economic, and humanitarian crisis in Venezuela and 
its spillover effects into the region remains a significant threat to 
Colombia's economic growth and political stabilization efforts. 
Colombia carries the greatest burden of any of Venezuela's neighbors as 
this hemisphere deals with the effects of the tyranny, the cruelty, and 
the incompetence of Nicolas Maduro.
    He and those who support him have provoked a regional stability 
crisis As we speak, more than 3 percent of the population of Venezuela 
resides in Colombia, a statistic that should--but won't--make even 
Nicolas Maduro hang his head in shame. Venezuela's porous border with 
Colombia, coupled with Maduro's decision to harbor groups like FARC 
dissidents and the ELN in Venezuela, has generated new security 
challenges.
    At the latest estimate, Colombia hosts over 1.4 million Venezuelan 
refugees and displaced Venezuelans, imposing outsized burdens on 
Colombian taxpayers and generating outsized demands on Colombian social 
services. Lay those costs at the feet of Nicolas Maduro, not at the 
feet of those forced to flee his tyrannical rule. Each of those 
individuals has a story to tell of oppression, deprivation, and 
suffering. Desperate and vulnerable Venezuelans are susceptible both to 
exploitation by criminal groups and, in some cases, to recruitment by 
illegal actors. We commend Colombia for its humanitarian contributions 
and for its generosity.
    The United States has been deeply involved in the humanitarian and 
diplomatic effort to address the crisis. Since FY 2017, we have 
provided nearly $214 million to help Colombia respond to the influx, 
including nearly $175 million in humanitarian aid and more than $37 
million development and economic assistance. In addition, we have twice 
deployed the U.S. Navy Ship COMFORT on medical missions to the region. 
During stops in Colombia in November 2018 and in August, COMFORT 
personnel treated more than 17,000 patients.
    While helping Colombia confront these challenges, we must never 
lose sight of the real progress it has made. Through steady economic 
stewardship over the past two decades, and with our assistance, 
Colombia has doubled the size of its economy and the number of 
Colombians in poverty has fallen from 1-in-5 to 1-in-25. Our Trade 
Promotion Agreement underpins a strong trading relationship with two-
way goods trade of $29 billion in 2018. The United States supported 
Colombia's accession to the OECD, based on its significant efforts over 
the past 5 years to meet the OECD's technical standards. We look 
forward to formally welcoming Colombia to the OECD once it formalizes 
its accession.
    We have a fully committed partner in the Duque administration. As 
President Duque told President Trump when he visited the White House in 
February, he and his administration are supporting efforts to secure a 
just and lasting peace by extending stability, legality, and 
opportunity in Colombia's conflict-affected regions, aggressively 
increasing counternarcotics efforts and confronting the threat of a 
destabilized Venezuela.
    Our FY 2020 funding request for Colombia reflects the 
administration's focus on advancing these priorities. Building on 
effective prior-year programs, bilateral U.S. assistance will focus on:

    <bullet> Security, including counternarcotics and reintegration of 
ex-combatants;

    <bullet> Expansion of state presence in conflict-affected areas; 
and

    <bullet> Justice and support to the Colombian government for 
victims.

    Chairman Rubio, Ranking Member Cardin, Members of the Subcommittee, 
thank you for the opportunity to meet with you today to discuss our 
relationship with Colombia.
    We all know that congressional support has been instrumental in the 
successes of the past 20 years, and we know that it remains the 
foundation of our successful partnership with the people and the 
democratic institutions of Colombia. I look forward to your questions.

    Senator Rubio. Thank you.
    I will defer my time. I know members have to be in other 
places. So we will start with the ranking member.
    Senator Cardin. Well, let me thank all three of our 
witnesses.
    Mr. O'Reilly, I want to start with your observations. And 
as I said in my opening statement, I strongly support the 
progress that we have made on the relationship between the 
United States and Colombia. It is in our national security 
interests, and I am proud of the progress that we have made. It 
is based upon shared values, and you mentioned specifically 
promoting human rights.
    So how can we explain so many human rights and social 
leaders who have been attacked in recent times in Colombia, and 
that we see a rise in the safety and protecting human rights in 
that country? What are we doing to hold the government 
accountable to protect the rights of its citizens?
    Mr. O'Reilly. Senator, we all have seen this over the 
years. This is a problem of long standing.
    Senator Cardin. There seems to have been a spike recently.
    Mr. O'Reilly. In Colombia, and indeed, it has been a severe 
problem in the short term. Over the longer term, I think the 
country has done a substantial job in improving the general 
long-term trajectory, but indeed it is incredibly important to 
focus on the areas where they have been under the most 
pressure. In these rural areas, as Assistant Secretary Madison 
was saying, often where the trafficking is most severe, we 
have----
    Senator Cardin. Are you satisfied that the Duque government 
is paying enough attention to this problem?
    Mr. O'Reilly. I am, sir. It is an immensely large country. 
It is a severe problem.
    Senator Cardin. Four hundred seventy-nine human rights 
leaders and social leaders have been assassinated since 2016. 
You are satisfied they are doing enough?
    Mr. O'Reilly. I am satisfied that they are working hard to 
confront the problem, sir. If one of these people suffers that 
sort of violence meted out against them, if they are murdered, 
it is one too many. And it is, in that sense, clearly 
unacceptable. The challenge, of course, they face is vast and 
complex. We have engaged with them consistently through the 
embassy. It has been a regular topic of conversation when we 
meet with their senior authorities here in Washington as well.
    Senator Cardin. Are we engaging the Colombian military and 
police about this issue?
    Mr. O'Reilly. Yes, sir.
    Senator Cardin. What type of response are we getting for 
their protecting the rights of citizens that are raising 
concerns about their own country?
    Mr. O'Reilly. We have seen--and I will commit to getting 
you the most precise numbers I can. We have seen a relative 
increase, as I understand it, in the number of closed cases and 
investigations, but that of course is post facto, after the 
fact of these attacks. We have seen them move resources into 
some of these rural areas even in a period of economic 
austerity. The relative focus of their budget across the board 
in security and in other social expenditures tends to be 
focused more towards rural areas and more towards these areas 
identified as being hot areas of conflict. And there is 
obviously much more that has to be done.
    Senator Cardin. So Mr. Duque was originally not a supporter 
of the peace process. He now has the responsibility as the 
leader of Colombia. He has been implementing the peace process. 
We have seen significant concerns as to the implementation 
including, as pointed out, the FARC sources starting to come 
back to life.
    How do you judge how we can be helpful to make sure the 
peace accords are in fact implemented?
    Mr. O'Reilly. When President Duque took office, he put 
forward about a half dozen different concerns, mostly focused 
on procedural issues, with the structure of the peace accord, 
and he brought those forward in his political system. When it 
finally came to the Constitutional Court and his position did 
not prosper within, I believe it was, 3 days, he signed the 
implementing legislation.
    Senator Cardin. I know that, but we are seeing it getting 
off track. What are we doing to work with the Duque government 
to get this aggressively implemented?
    Mr. O'Reilly. The messages that our former chief of 
mission, Ambassador Whitaker, the messages that our current 
chief of mission, Phil Goldberg, have brought to the 
administration, our engagement with them here all is in support 
of helping them bring this agreement forward where they have 
made an emphasis--and I think it is a correct emphasis--on a 
firm line against those who would stand against peace and 
working as aggressively as possible to support those who have 
put down their arms and are working towards integration into 
the society. They have had significant success, particularly in 
those areas where ex-FARC combatants have concentrated their 
efforts or concentrated themselves in communities and keeping 
those people safe and keeping them engaged in politics as the 
FARC party. And I think our fundamental mission is helping them 
advance that message of a firm line with those who cross the 
line and being as supportive as possible in implementing what 
is going to be a long and difficult process of bringing this 
peace process to a successful conclusion.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Portman.
    Senator Portman. Thank you, Chairman Rubio and Ranking 
Member Cardin, for having the hearing, and I appreciated the 
testimony today.
    I was involved back in the day with the Free Trade 
Agreement with Colombia. I negotiated with President Uribe 
directly, who rolled up his sleeves and jumped into it and was 
very enthusiastic. I see now that our trade with Colombia, 
although significant, is not growing as fast as their trade 
relationships with China. In fact, the Chinese investment and 
trade with Colombia has grown exponentially, being now their 
second largest trading partner and their second largest 
exporter.
    So I guess one question I would have for you all--and I 
know Mr. Marczak is coming up for the Atlantic Council. He 
talked about this some in his testimony. But I wonder if you 
could talk a little about the trade relationship. I do not 
know. Mr. O'Reilly, maybe you are the right one or AID, Mr. 
Bursa. But how is it working, one? And are you concerned about 
the Chinese influence in Colombia and the stronger economic 
relationship there?
    Mr. O'Reilly. On the whole, it has been a success--the 
process of economic reform over these last 20 years, the 
greater stability in the country. We are drawing more Colombian 
investment into this country. U.S. firms are making substantial 
commitments in foreign direct investment. I was the Colombian 
desk officer 15 or 16 years ago. The economy in Colombia now is 
more than twice the size of what it was then.
    They do trade with China and that trade is growing. We all 
trade with China. The question is how fair and how open and 
transparent that trade is.
    Senator Portman. But also there is more and more Chinese 
investment in the country. And I guess my question to you is 
are you concerned about that from a national security point of 
view, particularly because it seems to be displacing some of 
our investment, if you look at the numbers.
    Mr. O'Reilly. Thank you, Senator.
    We have made it clear with our counterparts in Colombia 
that they should look closely. And it is a message that we have 
shared with others in the region as well, that they should look 
very closely at the character and quality of the relationships 
they enter into with Chinese counterparts. Many of them are 
state-owned firms. Many of them do not necessarily have the 
same commitments to openness and transparency that we would 
expect from our firms, that Colombians expect from their own. 
So, yes, indeed, we have asked them to take a very close eye at 
the quality of those and the nature of the security 
implications of any investments that they might consider 
accepting from Chinese sources.
    Senator Portman. We talked about some of the good news, and 
there is a lot of good news on the economy, on the stability in 
the country. What President Duque has done is really--you know, 
the third of fourth president who has brought that kind of 
stability, particularly with regard to the peace agreement. 
Things are in better shape.
    And yet, I saw just late last month, even a few weeks ago, 
one of the splinter groups from FARC called for returning to 
arms and armed conflict with the government. I think it was in 
relation to the number of people who had been resettled or who 
had left FARC who had been assassinated.
    Are you concerned about that? And what, if anything, should 
we be doing after spending significant amounts of American 
taxpayer money, about $10 billion I think over a period of a 
couple decades with regard to Plan Colombia? Should we be 
concerned that this is starting to unravel, or do you feel as 
though it is just a splinter group without much significance?
    Mr. O'Reilly. Sir, I am sad to say I am very much 
concerned, but I am not surprised. The leading figures who 
participated in that announcement on August 29th had been 
distancing themselves from the FARC political party and from 
the commitments they had made to the international community, 
to the Colombian people for some time. Mr. Marquez had stepped 
back significantly. Mr. Santrich was under criminal 
investigation in his own country and under indictment in our 
own. They continued to engage in criminal activity.
    Senator Portman. It did not surprise you that those 
individuals would have been unhappy with the process of the 
peace agreement in effect, but what should we do? And my time 
is coming to a close here. But what should we do in relation to 
that?
    And second, with 1.4 million Venezuelans in Colombia, I 
know you are going to talk about this in response to other 
questions, but we would love to hear for the subcommittee's 
purposes what should we do at this point that we are not 
currently doing? So if you could maybe take those questions for 
the record, that would be great.
    My time has expired, and I appreciate all three of you 
being here, to the witnesses on the second panel as well.
    Senator Rubio. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses.
    You know, people wonder whether the United States' foreign 
policy or investments can make a difference. I hold up Colombia 
as an example. And the fact that it is still fragile and it 
still needs work I think does mean that we need to continue to 
be involved. I think we have been persistent. We have been 
willing to invest over a long haul. We have been bipartisan. It 
began with Presidents Clinton and then Bush and then Obama and 
then President Trump. And that has been really important. It 
has had great support from bipartisan Members of Congress. And 
I do think we have high stakes in maintaining it.
    I have heard the names of President Uribe and President 
Duque mentioned often. I have not heard anybody mention 
President Santos, who won the Nobel Prize for his work, and so 
I want to put his name on the record because it has involved 
successive leaders who do not see eye to eye on everything, but 
it has involved leaders who have been willing to do very hard 
work.
    I also went to Cucuta and to Bogota in March. And one of 
the reasons I went was primarily to follow up on the Venezuelan 
issue, but I was worried that I was hearing in this room from 
witness tables relatively rosy scenarios about what might 
happen and how quickly it might happen. I was hearing that from 
others as well. And I was struck, when I went in March, and 
visited both with Colombian leaders, governmental leaders and 
leaders in the sort of NGO space, and then when I was at the 
border in Cucuta, I was not hearing such rosy optimism about 
the likely timing of developments in Venezuela.
    This is a hearing about Colombia, not Venezuela, but as I 
look at the challenges that Colombia has, I share Senator 
Rubio's opening statement about the value of Colombia as a 
partner in this hemisphere and around the world. I remember 
going to the Sinai and looking at Colombian troops who were 
there as peacekeepers in the multinational force of observers 
protecting the border between Egypt and Israel. To see Colombia 
assert itself as a peacekeeping nation around the world, what a 
wonderful thing. So we need to do what we can.
    But there are significant challenges with the peace 
process, with trying to integrate parts of the country that had 
not been invested in for decades back into the country. But I 
still think the thing that poses the most risk to the peace 
process is this massive humanitarian and security crisis in 
Venezuela, the refugee effect in Colombia and others.
    So I just would sort of like you to give your thoughts to 
the committee as of right now, mid-September 2019. To help 
Colombia, what should we be doing, this committee and Congress? 
What should we be doing more to hasten peace efforts, 
negotiation, and other efforts to bring stability to Venezuela? 
Should we be doing more bilaterally? Should we be engaged with 
the CARICOM process of Caribbean nations? What would your 
advice to us be?
    Mr. O'Reilly. I too have been frustrated--and my 
colleagues--with the difficulty in bringing definitive change 
and an improvement of conditions in Venezuela. Mr. Maduro may 
not know the time nor the hour, but I think it is clear that 
his ability to continue this is not infinite.
    I think the best way that we can help Colombia deal with 
this is work in concert with Colombia and other likeminded 
governments in the region to make it harder and harder for 
Nicolas Maduro to evade the inevitable. All it does is drag out 
the suffering of the Venezuelan people and those people that 
you met in Cucuta and you, Senator Menendez, and others who 
have been forced to be expelled effectively from their own 
homelands. That includes economic sanctions not on the country, 
but on those who are oppressing the country. And it means ever 
closer cooperation.
    This is one reason that we joined the Guaido administration 
recently in calling for a meeting of the Rio Pact not for any 
other reason but to more effectively coordinate our 
humanitarian and our sanctions regimes and have a practical 
discussion with our counterparts in other governments as to how 
we can provide relief and how we can do a better job hedging in 
Mr. Maduro because, yes, indeed, these externalities are coming 
at a stiff cost not just for the Venezuelan people but for the 
people of the rest of South America and indeed the Caribbean.
    Senator Kaine. My time has expired, but I may submit the 
question for the record to try to get witnesses on both panel 
one and panel two's responses. Thank you.
    Senator Rubio. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all for being here.
    I wanted to talk really about the importance of women in 
the peace settlement with the FARC and whether you see that 
being important going forward and what we can do to continue to 
ensure that women have an important role to play in further 
negotiations and in the future of Colombia. And I do not know. 
I guess, Mr. O'Reilly, that I would direct that first to you.
    Mr. O'Reilly. We absolutely do, ma'am. And it is clear, 
although I may defer to Mr. Barsa for more of the programmatic 
aspects of this, ma'am, but it is clear to us that where people 
successfully protect the role of women in this process in the 
communities where that is most effective, the degree of 
backsliding or recidivism is less. It knits together families. 
It knits together the communities and creates a totally 
different kind of a circumstance. These are not just individual 
actors. Along with the 7,000 or so demobilized combatants, the 
Colombian authorities have recognized a nearly equal number of 
people who were supporting, and many of those were women.
    Senator Shaheen. You are absolutely right, and I think it 
is important to point out that research has shown a direct 
correlation between peace and security and a society's 
treatment of women. That more than levels of wealth, democracy, 
or ethno-religious factors, that the best indicator of a 
state's peacefulness and stability is how well it treats its 
women. And we have, as I am sure you all are aware, legislation 
that passed in 2017, signed by the President, called the Women, 
Peace, and Security Act, that encourages us to partner with 
other countries to ensure that women continue to be part of the 
political process and be part of any conflict negotiations.
    So can you talk about how you see that continuing to be 
implemented? Maybe you, Mr. Barsa, would be better to address 
that from USAID.
    Mr. Barsa. Thank you very much, ma'am.
    So it was very important to me when I was in Colombia to 
meet with human rights leaders, leaders of indigenous groups, 
and leaders of women's groups as well because, as you state, 
you cannot have any stable peace or development without the 
inclusion of all sectors of societies, including women. So when 
I was in Bogota, I met with people like Marino Cordoba, the 
Director of the National Association of Displaced Afro-
Colombians.
    And later on when I was in the field meeting with human 
rights leaders, I met with Dora Cortes, who is a coordinator of 
a women's roundtable in Tumaco. And we were discussing just how 
USAID programs to support human rights inclusiveness have been 
helpful for these groups and had a dialogue to see how we could 
do better.
    Overall, in conversations I had with the members of the 
Duque administration, we were in agreement on all these points. 
So we have programs in place, and we are constantly looking to 
refine them and improve upon them.
    Senator Shaheen. Thank you.
    Ms. Madison, you pointed out the Colombian effort to reduce 
cocaine cultivation and production by 50 percent, I think, by 
2023. Can you talk about the interconnectedness of the illegal 
drug trade from Colombia through Mexico to the U.S., what we 
are doing to try and address that and how we are working 
cooperatively with those countries in their counter-drug 
efforts? As coming from a state where the opioid epidemic has 
really taken its toll, the more we can do to keep drugs out of 
this country, the better we can help people who are struggling 
with substance use disorders.
    Ms. Madison. Our program in Colombia is a very longstanding 
program. It covers everything really from the coca field and 
demand reduction to working with law enforcement on 
interdiction, on investigations, targeting the assets and 
infrastructure of transnational organized criminals. You know, 
you have seen ebbs and flows in the success of eradication. 
That has to do, I think, with some shifting realities. I think 
in the process of securing the peace accords, there were 
certain incentives that were created actually to increase 
cultivation. You had the end of aerial eradication. And we saw 
the spike begin to rise.
    I think what is important now is that the curve is 
flattening, which is absolutely critical. It is not enough. And 
over the next couple of years, we need to work with the 
Colombians directly to continue to drive that down. 90 percent 
of the cocaine in the United States comes from Colombia. So 
while there is production in Peru and there is production in 
Bolivia, Colombia really is the core of the effort.
    And just as an aside on the peace agreement, I think the 
Colombians have to continue to take this issue on because this 
is how they will be able to put deep roots down in the rural 
parts of Colombia. The FARC is off the battlefield by and 
large, and they are no longer fighting an insurgency while they 
try to do this eradication and try and take this on. But now 
they actually have to get out into these communities, take it 
on, do the eradication, do the kind of things that John and his 
team work on, which is alternative development. It is a key 
plank of President Duque's game plan, the rural security piece, 
and we are supporting it from INL.
    The challenge that we have, of course, is that the cocaine 
moves, it sweeps up the isthmus, it goes through Mexico. The 
paths cross sometimes with opioids, which dramatically 
increases the lethality. I would say Mexico and Colombia are 
really the two poles of our efforts in the Western Hemisphere. 
Again, in Mexico, it is a different relationship and a 
different program, but we are also working with the Mexican 
Government to start in the field, target ports, help on 
interdiction. And I think it is a constant effort because these 
groups continue to evolve their tactics and their skills. But 
these two countries working together is an absolutely essential 
piece of it.
    I am quite worried actually about what is going on with the 
synthetic opioids in Mexico. It is a very specific issue that 
we need to take on with them and figure out a game plan on.
    But I think these two countries' very expansive programs, 
much more expansive in Colombia, are the key.
    The other thing I would say which has fundamentally changed 
from even a decade ago is the fact that we now have Colombia 
leading in the hemisphere. They are leading complex, 18-nation 
missions to do interdiction. They are out working. They are 
working with Ecuador, which was not happening even just few 
years ago. So we have the Colombians actually helping us fill 
the space and helping us build the capabilities of other 
partners. So I think we are trying to connect the dots up the 
isthmus from Colombia to Mexico.
    There is a lot there and there is a lot of complexity to 
it, and I think the key is that we just cannot let up. And when 
I say the Colombians have done spectacular things with 
eradication in this first year, I mean it. It is amazing. But 
it is not enough. It has to continue. It has to expand. We are 
right there with them. And I think if we get it right in 
Colombia, we begin to really change the calculus all the way up 
the isthmus with the exception of synthetic opioids in Mexico, 
which I think is a separate issue and a really critical one.
    Senator Shaheen. And at this point is what is really 
killing people--the synthetics.
    Ms. Madison. I think that is right. As I said, the 
statistics show that of the 14,000 cocaine deaths in 2017, 
three-quarters of them involved opioids. And it is because 
opioids are cheap. They are easier to produce. You do not have 
to worry about somebody eradicating your fields. And the 
agility of the synthetic opioids business model is actually 
really dangerous. I am not surprised we are seeing 
proliferation. What is most concerning, of course, is that it 
is proliferation right on our border. And so this requires time 
and attention. I am actually headed to Mexico in October really 
to talk about this.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    And thank you to all the witnesses.
    Mr. O'Reilly, you know, a dissident faction of the FARC 
announced that it will rearm and it is believed their 
operations are supported by the Maduro regime and conducted on 
Venezuelan territory. President Duque has backed this claim 
about the location of the FARC dissidents.
    What do we know about the location of the FARC dissidents, 
and can you confirm President Duque's claims?
    Mr. O'Reilly. Senator, we know that people have moved in 
and out across that border. In fact, indeed, the Colombian 
authorities have stated that some of these people are now 
lodging themselves there. To the extent that this continues, it 
creates a circumstance which is quite a challenge for the 
Colombians.
    Senator Menendez. I appreciate what you are saying, but 
that is not my question. My question is, what do we 
independently know about FARC dissidents and those who have 
called back to arms being in Venezuela, and does that coincide 
with the Colombian assertions that the FARC dissidents are now 
inside of Venezuela?
    Mr. O'Reilly. I can say that I know that they have moved 
back and forth and that on occasion they have settled in there. 
For the rest of it, if it is okay with you, sir, I will take 
the question and we can discuss it offline.
    Senator Menendez. Are you telling me it is a classified 
answer that you need to give?
    Mr. O'Reilly. I will tell you I have to investigate that, 
sir, before I can give you a definitive answer.
    Senator Menendez. Okay. But you come to a hearing on 
Colombia where we know we are going to talk about Venezuela, 
and it seems to me a simple enough question to have been 
prepared for. Anyhow, I want to know what the answer is to 
that.
    Mr. O'Reilly. Absolutely understood.
    Senator Menendez. What steps is the administration 
contemplating to hold the Maduro regime accountable for its 
willingness to allow foreign terrorist organizations like the 
ELN and now this dissident group of the FARC to operate out of 
Venezuelan territory if our assertion is, along with the 
Colombians, that they are in Venezuelan territory?
    Mr. O'Reilly. Sir, we are constantly assessing the 
activities or their support for these sorts of activities of 
any foreign terrorist organization and any international acts 
of terrorism linked to that. And we, in terms of dealing with 
the Colombian authorities, are regularly sharing whatever 
information we have and as much as we possibly can in 
coordinating with them so that when they are operating inside 
Colombian territory, the Colombian authorities can respond 
effectively to that. It is unacceptable that Nicolas Maduro and 
those who support him would offer any top cover for these 
people or any safe haven to them at any time.
    Senator Menendez. Well, excuse my impatience, but I have 
limited time.
    So the question is, are we considering particular sanctions 
beyond what we have done in Venezuela because of what Maduro 
has done? Are we looking at designations here of terrorist 
organizations? Are we looking at others that have given refuge 
and are part of facilitating these terrorist organizations 
operating out of Venezuela? Some suggest the Cubans have 
something to do with that. Are we considering any of those 
things?
    Mr. O'Reilly. We are constantly assessing the question of 
designations.
    Senator Menendez. All right. But you cannot give me any 
designations that you are contemplating right now. No. Okay.
    Now, let me ask you. Maybe this one will be simpler. I 
appreciate what the administration did. As a matter of fact, 
legislation that several of us on this committee have promoted 
is to actually advance a more robust amount of money because of 
the realities that Colombia is facing every day with over 1.4 
million Venezuelans that have now stayed in Colombia, not just 
transited through but stayed in Colombia, and growing. So while 
$350 million is a good thing, it is nowhere near the magnitude 
of the crisis.
    Why has the administration not engaged in creating a 
donors' conference to have others--this is going to rival Syria 
at the rate that it is going in terms of the displacement of 
people. So I am not suggesting we should bear it all, though I 
am suggesting we should do more. But why is there not a donors' 
conference that has been pursued. Either you or Mr. Barsa maybe 
can help me with this.
    Mr. Barsa. Senator, it was heartening for me to learn how 
other countries have assisted with humanitarian assistance, as 
well as some of the aid that was trying to get through Cucuta 
when you were there. But certainly we called for other 
countries to increase their assistance in this area. Regarding 
the specifics of planning for a donors' conference, I have no 
information I could share.
    Senator Menendez. Mr. O'Reilly, any plans for a donors' 
conference?
    Mr. O'Reilly. The question, apart from the conference, sir, 
is that we are constantly arm-twisting our other colleagues 
from other governments to step up and do more.
    Senator Menendez. Well, it seems that if we convene a 
donors' conference, number one is we are going to invite 
countries to join. They are going to have to say what they are 
willing to do or not do. And it would be far more significant 
in resources than what we have given and what is needed. And 
so, you know, we talk about the Colombians being responsible to 
do a series of things, which I agree with, but we need to help 
them. They are in our own hemisphere. This is one of the 
largest refugee crises that we have had in our hemisphere in 
quite some time. We need to help the Colombians be able to 
achieve this goal. They have been incredibly good neighbors. 
You know, they have not done what some other countries have 
done of closing the border. So we need to help them. I do not 
understand why there is a reticence on creating a donors' 
conference.
    If I may, just one last question to Secretary Madison. You 
know, during my recent meetings with President Duque in the 
U.S. embassy in Bogota, I stressed the need for a truly 
comprehensive approach to counter narcotics. And while I 
understand the administration's priority on eradication, given 
the alarming levels of coca cultivation, we certainly cannot 
expect to achieve long-term success without a balanced 
approach. And I heard you refer to a balanced approach.
    As an example, I would like to see INL place greater 
emphasis on money laundering and financial crimes. While the 
Department submitted congressional notifications for $250 
million in fiscal year 2018, only $4 million, or 1.5 percent, 
of the funding will address money laundering. What steps are 
you taking to ensure a comprehensive approach and ensure that 
adequate funding for issues, including money laundering and the 
rule of law, are part of it?
    Ms. Madison. Senator, I do believe that we take a 
comprehensive approach to the reality of the drug issue in 
Colombia. We are working really on all fronts in supporting the 
efforts of the Government of Colombia to reduce demand, to 
reduce supply, to disrupt TCOs, to push out on rural security 
and improving rural security and all the sort of elements of 
that. And the rule of law and anti-money laundering efforts and 
asset forfeiture efforts are an important piece of it.
    I will say I arrived at INL last year thinking that 
actually we needed to modernize and think more creatively about 
our anti-money laundering programs in general because I think 
money laundering has continued to evolve and our training and 
other things had not evolved in the same way that the money 
laundering tactics of the criminals have.
    In Colombia specifically, we have had training with IRS and 
UNODC to build investigative skills. We have had ongoing 
efforts to build the capabilities of judges who actually look 
at asset forfeiture in these financial cases. And looking 
forward, we formed an actual technical working group with the 
Attorney General's Office, which owns a financial investigative 
arm. It owns an anti-money laundering unit. It owns an asset 
forfeiture unit. And we think that that will continue to 
generate ideas on what else we can do.
    We have also brought in the FBI to do an assessment to look 
at other things that we could put on the table to be helpful to 
the Colombians. And more recently I took my team over to sit 
down with FINCEN and talk a little bit more about what else we 
can do.
    Senator Menendez. I appreciate it, but if 1.5 percent of 
your total monies for Colombia are going to money laundering, 
it seems to me that if I get your money and I squeeze you, it 
is one of the ways in which I harm you the greatest. And so I 
would just urge you to be looking at a more robust engagement 
in this regard so that we can actually get to the traffickers' 
monies at the end of the day, which I think can be enormously 
debilitating and help fuel some of the things we need.
    Mr. Chairman, I thank you for your indulgence.
    Senator Rubio. Thank you.
    And I will take my time now here at the end unless there 
are any more questions.
    I want to narrow in, Secretary Madison, on the drug trade 
that we keep focusing on. There is no doubt that coca is grown, 
maybe even being processed in these labs out there. But then it 
has to be moved, and some of that is maritime movement. Is that 
correct? Some of it is put on these boats.
    Ms. Madison. I think they move it any way that they can, 
but a big part is maritime.
    Senator Rubio. Right.
    So let us talk about the flights because there are 
airplanes that land in these fields in Central America and then 
are trafficked up across the border. There are others that go 
into the Caribbean, and some of it leapfrogs from the Caribbean 
into the U.S., but some of it leapfrogs from the Caribbean to 
Europe. There is a growth in the cocaine that is being shipped 
to Europe. Correct?
    Ms. Madison. In fact, there is growth in the cocaine market 
around the world. I was recently in London, and I was recently 
in Australia. And in both places cocaine is actually an 
enormous issue, and it is coming from this hemisphere.
    Senator Rubio. Right. And those would have to be aerial 
routes. I imagine they are not taking these little fake 
submersibles all the way over there. Right?
    Ms. Madison. Actually they do get boats that cross the 
southern ocean and go to Australia.
    Senator Rubio. Fast boats.
    Ms. Madison. But I am assuming that that is not the 
preponderance of it.
    Senator Rubio. The point I am trying to raise is when those 
flights happen, where are those flight originating? What is the 
path those flights are taking?
    Ms. Madison. There are a number of pathways, but we have 
noted, which I imagine is an issue of concern to you in 
particular, a pattern of flights leaving Venezuela. There is 
also a maritime vector through Ecuador up the East Pac, which 
is actually pretty significant. A lot of them are Venezuelan.
    Senator Rubio. And the flights to Venezuela--how many of 
those that we know of have the Maduro regime interdicted and 
stopped and called up and said we have these drug traffickers 
here that we caught?
    Ms. Madison. Because I am not on the operational side, I 
cannot answer you with absolute certainty. I am not aware that 
we are getting substantial cooperation out of Venezuela on the 
issue of narcotics. In fact, I think it is quite the opposite.
    Senator Rubio. Is it fair to say that these people who are 
flying these drugs are deliberately flying through Venezuelan 
airspace to avoid radar detection by either the Colombians or 
otherwise and certainly taking off from airfields in Venezuela? 
That is fair to say.
    Ms. Madison. What I think is always fair to say is that 
narcotraffickers will take the path of least resistance, and if 
there is a place where enforcement is not done, where there is 
not sort of a denial of use of airspace and where there is no 
official effort to block them, they will take it. The other 
instance where they can take it is when there is not capacity, 
which is also the case in some places.
    Senator Rubio. Well, Venezuela has the capacity to control 
its airspace. We have seen them do it when they have to.
    The point being is one of the paths of least resistance--
there are air flights leaving Venezuela with Colombian cocaine, 
a significant portion.
    Ms. Madison. As I said in my testimony--let me just 
reiterate--I think Venezuela is an enormous problem on the 
counter-drug issue. I think the fact that Venezuela does not 
work with us or its neighbors in the way that it once did is 
very damaging to the larger effort to take these issues on in 
South America. It is why it is so important that we are working 
with the Colombians, working with the Peruvians. We brought 
Ecuador back online. In some respect, it is about the objective 
realities of a place like Colombia, but it is also about the 
failures in Venezuela.
    Senator Rubio. Well, I know there was a question asked 
earlier by Senator Menendez. The Deputy Secretary of State, Mr. 
Sullivan, has said on the record that Venezuela acts as a safe 
haven for criminal organizations, and he was referring to the 
ELN and these dissident FARCs. They are criminal organizations 
because what criminal enterprise were they involved in beyond 
murder and kidnapping and things of this nature?
    Ms. Madison. I mean, obviously, there is a narcotrafficking 
nexus into Venezuela.
    Senator Rubio. And if the Deputy Secretary of State is 
saying they have safe haven and the Colombians are saying the 
same also, we have these narcotrafficking organizations 
operating in Venezuela.
    Ms. Madison. I believe that is correct.
    Senator Rubio. I will tell you where I am getting at that 
point. So all this eradication stuff is important. And by the 
way, there was a direct correlation between the ending of the 
aerial eradication under a court order and the spike in 
production. And that was under a court order, and now I know 
they have worked through it.
    The point I am trying to get at is all these things we are 
doing with the Colombians are important. What they are trying 
to do is important as well. But as long as you have two major 
drug trafficking organizations, if not more, operating openly 
with little to no formal resistance and often I believe--I 
think the evidence is clear--cooperation of a neighboring 
regime in a neighboring country, there is no way to deal with 
this. As long as there are these criminal elements operating 
with impunity across their border, trafficking these drugs, 
operating in this way, I do not know how we wrap the bow and 
really deal with this problem.
    Ms. Madison. I certainly think it makes it much harder, as 
I have said. I will say even at a time when we had more 
cooperation out of Venezuela, it was still absolutely critical 
that we were present and working with the Colombians and with 
others.
    Senator Rubio. Of course.
    Ms. Madison. But this is, most assuredly, not making it 
easier, and in fact, it is really undermining a lot of the good 
work that is going on.
    Senator Rubio. Well, not only do you have these 
narcotrafficking organizations operating out of Venezuelan 
territory, they also have as a side intent to overthrow the 
government of Colombia. And so you have these two things--I 
guess the point I am trying to raise is I personally do not 
believe--and I believe the evidence supports this--that we 
could ever truly address the production and sale and 
trafficking of cocaine out of Colombia without addressing the 
fact that these groups are operating with impunity from a 
neighboring territory, and the Colombians, right now anyway, 
cannot do anything about it because of what the implications of 
that would be.
    I want to talk about the peace deal because I think it is 
important to bring some clarity into that.
    One of the guys that showed up in the video the other day, 
by all accounts, certainly was not in Bogota. So he was 
probably in Venezuela when he put out that video about how he 
is going to take up arms again. This is an individual who after 
the peace deal had been signed, after he had been handed a seat 
in congress, was caught, along with his nephew shipping 10 tons 
of cocaine. And he was indicted and the DEA went after him. His 
nephew is now a cooperating witness, so we are going to learn a 
lot more about all this. The guy, Santrich, was able to fight 
extradition, and then winds up on a video a few weeks later 
saying, ``I am out of the peace deal because they are not being 
nice to me.'' He was a drug dealer, and he is a drug dealer 
after the peace deal was in place. And all of a sudden, the 
peace deal does not make sense.
    Look, I guess we should have expected it because I imagine 
he took a major pay cut going from drug dealer to congressman. 
It was a huge pay cut I imagine. It was very lucrative to be in 
this business.
    But I think it is important to point out that this peace 
deal that people now say is falling apart is not taking up arms 
because people are being mean, not that there are not problems 
in implementation--that is always the case. But many of these 
elements broke away initially because they do not want to give 
up the money that it produces. And this guy, after the deal was 
signed and he was supposedly a congressman, tried to ship 10 
tons of cocaine, and the DEA went after him. So I think that is 
really important.
    On the violence issue, you know, we have had seven 
candidates for local and municipal elections assassinated, and 
they were from different parties across the board. And there is 
all kinds of causation.
    In fairness, President Duque announced, I believe yesterday 
or the day before, that he is providing security to some of 
these candidates. Some of it appears to be regional in nature, 
a regional dispute of some kind. Some may be related to these 
groups and so forth. You have a candidate that says they are 
for aerial eradication. All of a sudden, people are taking 
shots at you.
    But what I want make clear is we are talking about violence 
against--certainly at least in this administration and the 
previous, we are not talking about the state. We are not 
talking about the army or the police assassinating these 
people. We are talking about political candidates and human 
rights activists being assassinated by paramilitary groups from 
the left, the right, gangs, the criminal gangs and the like. 
But just to be clear on the record, we are not talking about 
Colombian authorities murdering people. And I think the 
question is whether enough is being done to provide them 
protection.
    I will wrap this all up in a second.
    On the diplomacy front--I know that has been mentioned--
last week, Mr. O'Reilly, is it not the case that the United 
States and Colombia, along with 10 other countries, invoked at 
the OAS the beginning process of raising what is commonly known 
as the Rio Treaty, which took a significant amount of 
diplomatic work. I know it was under-reported, but that took a 
lot of diplomatic work. And I think one of the things that has 
been lost in a lot of the discussion about the region, because 
the focus is on U.S. policy, is I think a pretty unprecedented, 
certainly in the last decade, regional diplomatic commitment on 
this issue of Venezuela. Obviously, that impacts Colombia. Am I 
correct? There were 12 countries that helped bring that to the 
forefront.
    Mr. O'Reilly. Yes, Senator, absolutely. And it took an 
immense amount of work, and most of that work was done by South 
Americans. We, of course, follow this closely. We are members 
of the Rio Pact. We are signatories to the Rio Treaty, and we 
are deeply engaged in this. But it was Colombian diplomacy. It 
was Chilean diplomacy. It was Brazilian diplomacy and many 
other governments besides, all working together to try to 
figure out how they can protect their interests. They are the 
ones who are receiving millions of people expelled by Nicolas 
Maduro into their territory. They are the ones who are having 
the health risks imposed on them by this migration and the 
security risks and the whole gamut of challenges.
    Senator Rubio. And I guess just to be fair, you can talk 
about other parts of the world and what role diplomacy has 
played in other parts of the world and other policy challenges. 
But when it comes to the issue of Venezuela and Latin America, 
I think it is truly under-reported and largely unknown that 
there has been significant diplomatic work done, honestly, with 
no modern precedent. If you look at the Lima Group that we are 
not even members of--we accompany them, we attend meetings, but 
that is a Latin American initiative that we have been fully 
supportive of, and of course, the work at the OAS, which has 
taken 2 years of consistent diplomacy by the United States, by 
others to get to that point. And that is an important thing to 
point out.
    And I think the point that I am trying to make here is the 
following. One of the problems I have with U.S. foreign policy 
under administrations of either party is sometimes I worry that 
we are not good to our friends. We are sometimes nicer to 
adversaries than we are to friends. And that is troubling to 
me. You know, you are North Korea. You put people in camps. You 
do all these sort of atrocious things, and you get meetings. 
And you can fill in the blank and mention other places.
    I do not know of any nation that has been more cooperative 
in this hemisphere on virtually anything we have ever asked 
them to do with us than Colombia. And if you look at what they 
are facing, it is pretty daunting. They have not one but two 
well-funded criminal organizations operating with impunity out 
of a neighboring territory without the cooperation of the 
regime that controls that territory. These drug trafficking 
organizations that want to overthrow the government have an 
ideological bent, but largely, even though they are Marxist, 
they apparently like money because they like selling drugs. And 
then you have your neighboring regime mobilizing troops. He 
says 150,000. That is maybe a bunch of people holding 
broomsticks, but he has got people and he is moving stuff and 
assets in the region and mobilizing it. You are facing 1.4 
million migrants in the country, spending over $1 billion a 
year on social services and on education and the like, on top 
of all the other challenges you have trying to develop your 
economy.
    And by the way, all the donor stuff is important. Mr. 
Barsa, I do not know how much money the international community 
has given to this. But I also know that, for example, some 
neighboring countries, good friends at the OAS, are now 
requiring visas for the entry of Venezuelans, which only pushes 
even more Venezuelan migration towards Colombia.
    This is an untenable situation that they are facing. They 
have got this pressure on eradication, pressure to deal with 
political violence, and on top of that, have to deal with the 
costs, $1 billion or more a year, of dealing in a humane way 
with these neighbors that have come over, a hostile regime next 
door with equipment provided by Russian arms dealers and 
others, drug trafficking organizations not one but two that 
actually control territory and operate with impunity. This is a 
lot of pressure on one country.
    And I know we have been very helpful, but I also think we 
need to recognize the sheer volume of challenges that face 
Colombia. And that does not mean that we cannot be critical and 
that does not mean we cannot point to things that they can be 
doing better. But I also think we have to be fair in 
acknowledging that they are facing an extraordinary array of 
challenges.
    And I will end with this. It is very simple for these 
countries to go around and criticize Colombia on this, that, or 
the other. I do not know of any nation certainly in the world 
and even in this hemisphere that would tolerate or could 
tolerate for an extensive period of time armed elements 
operating with impunity from a neighboring territory without 
the cooperation of a regime that controls theoretically that 
territory and sit there with their arms crossed and do nothing 
about it. We would not tolerate it. We would not tolerate it. 
We would not ask anyone else in the world to tolerate it.
    So I think it is really important for us--I am not saying 
any of you have not done this--but for everyone to recognize 
that the sheer volume of challenges facing Colombia knows no 
precedent in this hemisphere. None. And it is amazing in my 
view that they have been able to do what they have done up to 
this point given all these challenges hitting them all at once.
    Senator Cardin. Mr. Chairman, if I might. I certainly share 
your frustration.
    The Venezuelan issue is not going to be resolved in the 
next couple weeks or next couple months. I think all of us had 
hoped that we would see a transition to a democratic, elected 
government by now. The circumstances in Venezuela have become 
more complicated because of the criminal elements and the 
outside support that the Maduro government has received. So it 
is a reality that we have to deal with. Today's hearing is on 
Colombia.
    I could not agree with you more. The leadership of Colombia 
is dedicated to the principles that we have set out in Plan 
Colombia, and that is democracy, protection of human rights, 
peace, economic progress, et cetera. The capacity to deal with 
these issues is challenged because it has transitioned from a 
near-failed state to a state that is making great economic 
progress. But now you put into it the challenges presented by 
Venezuela that you have already mentioned, and then the burden 
of 1.4 million migrants, that is why I questioned earlier as to 
what we are doing and--Senator Menendez--what the international 
community is doing in order to support the leadership in 
Colombia, to support the democratic process, the implementation 
of the peace process, the challenges related to the drug 
trafficking, and the circumstances of the border with Venezuela 
and the migrants. And as pointed out by our witnesses, they are 
moving in both directions and using Venezuela as a headquarters 
potentially for the resurgence of FARC elements to try to 
disrupt the peace process.
    So I appreciate our governmental panel. This is sort of a 
transition to the next panel. I hope that the private panel 
will have some concrete suggestions for us as to how we can 
increase the capacity of Colombia to deal with these challenges 
and where the United States can play a critical part in making 
that a reality.
    But I just really wanted to share your frustration as to 
the external factors that have made it much more difficult for 
Colombia that was on a path with obstacles now becoming even 
more challenging.
    Senator Rubio. And my last point on this is I would 
encourage, as I have privately and publicly, the administration 
to view our relationship with Colombia no longer simply in the 
vacuum of its own territory but all of those external factors 
that are facing it. It is in my view impossible to address the 
fundamental challenges we are talking about here today and not 
address the complexity created by the fact that some of the 
prominent groups behind many of the groups operate with 
impunity from a neighboring territory and a mafia acting as a 
government-under-arms controls that territory. So that is going 
to have to be addressed as part of this. There is no way to do 
one without the other.
    So I appreciate all of you and the time you have given us 
here today. Thank you very much.
    And we are going to call up our next panel. When we make 
that transition, I will introduce them.
    And I appreciate again the time all of you have given us.
    Our second panel: Christine Balling, Senior Fellow for 
Latin American Affairs at the American Foreign Policy Council; 
and Mr. Jason Marczak, the Director of the Adrienne Arsht Latin 
America Center, Atlantic Council.
    Probably a shameless plug here while we make this 
transition. Ms. Arsht--I do not know if she is still a resident 
of Florida. She was a longtime resident of Miami, Florida, and 
a big benefactor. I know she spends a lot of time here in 
Washington and has invested in the Atlantic Council's work as 
well.
    So I want to welcome both of you here. Usually we have like 
four people on the second panel, and by the time I am done 
introducing everybody, it is all set up. But today we had to 
move much quicker.
    Ms. Balling, we will begin with you. Thank you for being 
here.

    STATEMENT OF CHRISTINE BALLING, SENIOR FELLOW FOR LATIN 
AMERICAN AFFAIRS, AMERICAN FOREIGN POLICY COUNCIL, WASHINGTON, 
                               DC

    Ms. Balling. Chairman Rubio, Ranking Member Cardin, members 
of the committee, thank you very much.
    First, I would like to make a brief mention of my 
background as it relates to U.S.-Colombian relations.
    For 6 years, I operated a nonprofit organization that 
promoted democracy and youth leadership in areas where the FARC 
and the ELN were recruiting young people. I worked closely with 
the Colombian armed forces and U.S. Army civil affairs teams 
downrange.
    Additionally, in 2013, I was hired to serve as a subject-
matter expert to the Special Operations Command South commander 
on demobilization and counter-recruitment issues. My work 
included interviewing newly demobilized FARC and ELN fighters 
and creating the Colombian army's first tactical guide for 
individual demobilization.
    I have two specific recommendations as to how the U.S. can 
better help Colombia.
    With regard to the Venezuelan refugee crisis, to date the 
Colombian people have been incredibly welcoming of the 
Venezuelan refugees. It is relatively easy for Venezuelans to 
obtain a temporary border card to enter Colombia and have 
access to emergency health services as long as they enter at an 
official border checkpoint and remain in the four of the 
departments bordering Venezuela.
    However, as hundreds of Venezuelans seek refuge in Colombia 
every day, the Colombian authorities will need more assistance 
in order to maintain security and good relations with the 
civilian population.
    To this end, the United States should increase funding for 
U.S. Army civil affairs efforts that support the Colombian 
army's accion integral teams in the border region. Accion 
integral teams work for and with the local communities. Their 
initiatives include relatively low cost community engagement 
and infrastructure projects. In addition to fostering a 
trusting relationship between soldiers and the people they 
protect, successfully executed accion integral projects lessen 
the influence of bad actors who rely heavily on civilian 
cooperation in their day-to-day operations. The more unstable a 
given area is, the easier it is for bad actors to wield 
influence and recruit from the local population.
    For example, given their dire economic circumstances, 
Venezuelan refugees are particularly vulnerable to recruitment 
by bad actors, especially if they feel government presence is 
lacking. In some border areas, the Colombian army is all there 
is in terms of state presence. Therefore, it is crucial for a 
soldier to win the trust of the community by working alongside 
civilians to improve it. Additionally, unchecked xenophobia can 
destabilize a community to the point where it becomes a 
security issue. Executing accion integral projects that engage 
Colombians and their new Venezuelan neighbors could lessen 
tensions between them.
    A note about improving Colombian army intelligence 
networks. No doubt members of our intelligence community have 
been working this issue, but it warrants a mention in this 
forum.
    The United States should support the modernization of 
Colombian intelligence networks. Each Colombian army division 
has its own regional intelligence team known as a RIME. The 
RIME teams are highly effective in gathering human intelligence 
within their respective areas of operation. However, 
intelligence sharing mechanisms between army divisions and 
across other branches of the armed forces are lacking. If 
Colombian military intelligence is to be prepared for an 
increasingly complex security situation, continued investment 
in overhauling existing databases and intelligence sharing 
networks is warranted.
    I mentioned about the peace accord implementation. In 2016, 
when the Santos administration and the FARC representatives 
signed the peace accord, they did so knowing that implementing 
it as written would be very difficult to do. As an example, it 
was known that the Colombian Government could not fully finance 
it, as estimated costs over a decade are in the billions. It 
was also known that certain FARC fronts would never demobilize 
and that the highest ranking commanders might not be fully 
committed to abandoning their old ways.
    As it happens, Ivan Marquez and three other FARC commanders 
recently announced a renewed call to arms. Not surprisingly, 
these former peace negotiators blamed the Duque administration 
for failing to meet its accord-related commitments. Ivan 
Marquez's call to rearm, based on deep-seated grievances, is a 
disingenuous and a mere excuse to return to narcotrafficking 
and other illicit activities. It is therefore crucial that a, 
quote, ``FARC 2.0'' be stripped of political legitimacy if 
indeed it turns to violence.
    A note on the political situation. Unfortunately, the Duque 
administration's political rivals are also critical of its 
accord implementation efforts, going so far as to say that it 
is intentionally sabotaging the peace accord. The Duque 
administration must more effectively counter this narrative and 
publicize its successes while explaining how it is addressing 
the challenges.
    In sum, Colombia continues to be one of the United States' 
strongest allies in the western hemisphere. While most 
Americans are not aware of what the United States and Colombia 
have accomplished together for the betterment of both our 
nations, I thank Chairman Rubio and the members of the 
subcommittee for dedicating a hearing to this important 
bilateral relationship.
    [The prepared statement of Ms. Balling follows:]

                Prepared Statement of Christine Balling

                      peace accord implementation
    In 2016, when the Santos administration and the FARC 
representatives signed the peace accord, they did so knowing that 
implementing it as written would be difficult to do. As an example, it 
was known that Colombian government cannot fully finance it, as 
estimated costs over a decade are in the billions.\1\ It was also known 
that certain FARC fronts would never demobilize and that the highest 
ranking commanders might not be fully committed to abandoning their old 
ways.
    As it happens, Ivan Marquez and three other FARC commanders 
recently announced a renewed call to arms. Not surprisingly, the former 
peace negotiators blamed the Duque administration for failing to meet 
its accord-related commitments. Ivan Marquez's call to re-arm based on 
legitimate grievances is disingenuous and a mere excuse to return to 
narco-trafficking and other illicit activities. It is therefore crucial 
that a FARC 2.0 be stripped of political legitimacy if it indeed turns 
to violence.
    Unfortunately, the Duque administration's political rivals are also 
critical of its accord implementation efforts, going so far as to say 
it is intentionally sabotaging the peace accord. The Duque 
administration must more effectively counter this narrative and 
publicize its successes while explaining how it is addressing the 
challenges.

----------------
Notes

    \1\ https://www.reuters.com/article/us-colombia-rebels/peace-will-
cost-colombia-44-billion-over-10-years-senator-says-
idUSKCN0HX1KC20141008.

     venezuealan refugee crisis--supporting colombian army efforts
    To date, the Colombian people have been incredibly welcoming of the 
Venezuelan refugees. It is relatively easy for Venezuelans to obtain a 
temporary ``border card'' to enter Colombia and have access to 
emergency health services as long as they enter at an official border 
check point and remain in four of the departments bordering Venezuela. 
However, as hundreds of Venezuelans seek refuge in Colombia every day, 
the Colombian authorities will need more assistance in order to 
maintain security and good relations with the civilian population. To 
this end, the U.S. should increase funding for U.S. Army Civil Affairs 
efforts that support the Colombian Army's accion integral teams in the 
border regions. Accion integral teams work for and with local 
communities. Their initiatives include relatively low cost community 
engagement and infrastructure projects. In addition to fostering a 
trusting relationship between soldiers and the people they protect, 
successfully executed accion integral projects lessen the influence of 
bad actors who rely heavily on civilian cooperation in their day-to-day 
operations. The more unstable a given area is, the easier it is for bad 
actors to wield influence over and recruit from the local population.
    For example, given their dire economic circumstances, Venezuelan 
refugees are particularly vulnerable to recruitment by bad actors--
especially if they feel government presence is lacking. In some border 
areas, the Colombian army is all there is in terms of state presence. 
Therefore, it is crucial for a soldier to win the trust of the 
community by working alongside civilians to improve it. Additionally, 
unchecked xenophobia can destabilize a community to the point where is 
becomes a security issue. Executing accion integral projects that 
engage Colombian and their new Venezuelan neighbors could lessen 
tensions between them.
             improving colombian army intelligence networks
    No doubt members of our intelligence community have been working 
this issue, but it warrants a mention in this forum.
    The United States should support the modernization of Colombian 
Army intelligence networks. Each Colombian army division has its own 
regional intelligence team--known as Regionales de Inteligencia Militar 
(RIME). The RIME teams are highly effective in gathering human 
intelligence within their respective areas of operation. However, 
intelligence sharing mechanisms between army divisions and across other 
branches of the armed forces are lacking. If Colombian military 
intelligence is to be prepared for an increasingly complex security 
situation, continued investment in overhauling existing databases and 
intelligence sharing networks is warranted.
    In sum, Colombia continues to be one of the United States' 
strongest allies in the Western Hemisphere. While most Americans are 
not aware of what the United States and Colombia have accomplished 
together for the betterment of both our nations, I thank Senator Rubio 
and the members of this subcommittee for dedicating a hearing to this 
important bilateral relationship.

    Senator Rubio. Thank you.

  STATEMENT OF JASON MARCZAK, DIRECTOR, ADRIENNE ARSHT LATIN 
        AMERICA CENTER, ATLANTIC COUNCIL, WASHINGTON, DC

    Mr. Marczak. Chairman Rubio, Ranking Member Cardin, and 
distinguished members of the subcommittee, it is my privilege 
to address you on the critical importance of the U.S. 
partnership with Colombia.
    First, I would like to thank you for your longstanding 
continued bipartisan support of Colombia, one of the United 
States' strongest, most reliable partners in the entire world.
    I will be summarizing my written testimony.
    Colombia today shows how long-term U.S. commitment can pay 
incredible dividends, but as discussed today, it is facing 
major headwinds. Partnership with the United States at this 
moment is pivotal. We must double down to support our ally and 
capitalize on the broader potential of deepened U.S.-Colombia 
ties. The issues of historical focus must continue to be 
addressed: security, counternarcotics, human rights, among 
them. But Colombia is and can increasingly be a partner for the 
United States on issues ranging from trade and investment to 
partnering in solving other regional challenges.
    It is for this reason the Atlantic Council's Adrienne Arsht 
Latin America Center convened our U.S.-Colombia task force, and 
I thank Senator Cardin and Senator Blunt for co-chairing this 
effort.
    Today given rapid changes in the Western Hemisphere, U.S.-
Colombia security, economic, and geopolitical interests are 
more intertwined than ever before. We work together to fight 
international drug trafficking and transnational organized 
crime while promoting democracy, rule of law, and economic 
prosperity in the region. Through its leadership in the Lima 
Group, Colombia is spearheading efforts to address the crisis 
in Venezuela.
    While the ratification of the peace deal in 2016 
represented the opening of a new chapter for Colombia, it has 
also led to new challenges, among them securing and directing 
the necessary financial resources to implement the accords, 
expected to easily surpass $30 billion. The recent call to arms 
by Jesus Santrich and Ivan Marquez, both former FARC 
commanders, marks a worrying new development in the accord's 
implementation.
    As this subcommittee knows well, the regime of Nicolas 
Maduro is a direct threat to Colombia's peace and prosperity 
and that of the hemisphere and frankly the world. Maduro 
welcomes Colombian criminal groups with open arms and shelters 
FARC dissidents and the National Liberation Army, who engage in 
illegal gold mining and increasingly run their drug trafficking 
out of Venezuela. According to estimates from the Colombian 
Government, over 1,000 members of the ELN are currently in 
Venezuela. Colombian criminal groups have used the safe haven 
granted by the Maduro regime to regroup and rearm.
    At the same time, Colombia is a primary recipient of the 
largest mass migration in Latin America's recent history, which 
I have seen in my numerous visits to Colombia. 1.4 million 
Venezuelan migrants and refugees had arrived as of June, with 
Colombian migration authorities now projecting that number 
could even reach 2.5 million by year end in a moderate 
scenario.
    President Ivan Duque has adopted a policy of complete 
solidarity toward Venezuelans, providing medical care, housing, 
and public education, among other services.
    Still, more attention is needed to prevent a regional 
public health emergency that could eventually reach the United 
States.
    These factors make it critical to develop a regional 
consensus on how to absorb the influx of Venezuelans. Recently 
Ecuador joined Peru and Chile in tightening entry requirements, 
thereby increasing the burden further on Colombia.
    Additional international support, as previously discussed, 
is urgently needed. Colombia has received international funds 
that equate to about $68 per migrant, a fraction of the $500 to 
$900 donated per migrant or refugee from Syria, South Sudan, or 
Myanmar.
    Beyond the strains of Venezuela, the partnership will be 
further solidified as the United States supports Colombia's 
efforts to stabilize territories, foster rural development, and 
advance its economic prosperity.
    With the U.S.-Colombia Trade Promotion Agreement, the 
opportunities for mutually beneficial trade with our third 
largest export market in Latin America are enormous. Still, 
both countries must implement pending aspects of the TPA to 
expand market access and investment protections. These advances 
will also help to provide a counterweight to China's growing 
influence in Latin America.
    The future Colombian economy can be unleashed through 
innovation and technology, as well as linking human capital to 
rural development. One area of opportunity is for Colombia and 
the United States to expand educational exchange programs.
    A more modern agenda should also find new ways to promote 
rural development, build stronger institutions, and tackle the 
longstanding bilateral stress point, namely coca cultivation.
    Weak institutions and lack of economic opportunities in 
rural areas serve as the breeding ground for coca cultivation 
and cocaine production, illegal mining, and environmental 
degradation, as well as the strengthening of criminal 
organizations.
    To fully implement the peace agreement, Colombia will need 
the continued support of the United States and the 
international community.
    At the same time, although overall levels of violence have 
decreased, a new wave of violence has been unleashed against 
human rights defenders, community leaders, and social 
activists. Working with the Colombian Government to stop such 
killings should continue to be a priority for the United 
States.
    In conclusion, this is a critical moment to stand by 
Colombia. A strengthened and modernized partnership will 
provide the United States with an even stronger partner in the 
western hemisphere at a moment of great concern.
    Thank you once again for the opportunity to appear before 
the subcommittee today, and I look forward to your questions.
    [The prepared statement of Mr. Marczak follows:]

                  Prepared Statement of Jason Marczak

    Chairman Rubio, Ranking Member Cardin, and distinguished members of 
the Subcommittee, it is my privilege to address you this afternoon on 
the critical importance of the U.S. partnership with Colombia. My 
testimony will focus on opportunities for deepened collaboration with 
Colombia at this critical moment for the country and the hemisphere.
    Thank you for your longstanding, continued bipartisan support of 
the Colombian people and of Colombia--one of the United States' 
strongest, most reliable partners in the Western Hemisphere and the 
world.
    Colombia today is a success story of how long-term U.S. commitment 
can pay incredible dividends. Twenty years ago, many feared that 
Colombia, then-embroiled in violence, was on the path to becoming a 
failed state.
    Fast forward and Colombia is now one of the greatest success 
stories, but one that is facing major headwinds. A peace accord with 
the Revolutionary Armed Forces of Colombia (FARC) in 2016 is in the 
midst of implementation, but today faces new threats including those 
emanating from the deteriorating situation in Venezuela. Colombia faces 
two additional challenges: the flow of millions of Venezuelan migrants 
and refugees across its border and Venezuela increasingly being used as 
a safe haven for criminal organizations that threaten Colombia and the 
hemisphere. The support of the United States at this moment is pivotal: 
we must double-down to support our ally and capitalize on the broader 
potential of deepened U.S.-Colombia ties.
    The new challenges--and opportunities--faced by Colombia makes it 
imperative that we advance a new, modernized blueprint for the U.S.-
Colombia partnership. The issues of historical focus must continue to 
be addressed: security, counter-narcotics, human rights, among them. 
But Colombia is and can increasingly be a partner for the United States 
on issues ranging from trade and investment, to partnering in solving 
other regional challenges. Still, Colombia is at a crossroads.
    The leadership of this subcommittee and the U.S. Senate will thus 
be imperative. It is for this reason that the Atlantic Council's 
Adrienne Arsht Latin America Center convened the second phase of our 
U.S.-Colombia Task Force, with the findings to be released next week. I 
thank Senator Cardin and Senator Blunt for co-chairing this important 
effort. I will thus focus the rest of my testimony on three items that 
draw from our findings: Colombia's role as a strategic U.S. partner; 
Venezuela's multi-pronged impact; and opportunities to deepen and 
modernize the relationship.
                  colombia as a strategic u.s. partner
    The U.S.-Colombia relationship is one of the greatest U.S. foreign 
policy successes over the last two decades. The two nations have 
jointly worked together to create a mutually beneficial partnership 
that has successfully safeguarded U.S. and Colombian national security 
interests. Today, given rapid changes in the Western Hemisphere, our 
security, economic, and geopolitical interests are more intertwined 
than ever before.
    The partnership is far-reaching. We work together to fight 
international drug trafficking and transnational organized crime, while 
promoting democracy, the rule of law, and economic prosperity in the 
region. Colombia also contributes security expertise in Central 
America, Afghanistan, and a number of countries in Africa and is NATO's 
only global partner in Latin America. Through its leadership in the 
Lima Group, Colombia is spearheading regional efforts to address the 
crisis in Venezuela, and will certainly play a pivotal role in eventual 
post-transition efforts.
    Although the relationship is longstanding, the announcement of Plan 
Colombia in 1999 marked a sea change in the bilateral ties. Over the 
next two decades, the United States provided more than $11 billion to 
aid the Colombian government to strengthen state capacity and 
institutions, decrease coca crops, and fight the FARC and other illegal 
groups that profited from drug trafficking. This model is one that 
should be looked at for replication in other hotspots. U.S. financial 
support and technical assistance were fundamental, but, in the end, 
Colombia contributed more than 95 percent of the total investment in 
Plan Colombia.
    While the ratification of the peace deal in 2016 represented the 
opening of a new chapter for Colombia, it has also led to new 
challenges. Among them, securing and directing the necessary financial 
resources to implement the accords, expected to easily surpass $30 
billion. As well, although the University of Notre Dame's Kroc 
Institute for International Peace Studies notes that implementation is 
underway in 70 percent of the accords' commitments, uneven 
implementation is widely seen among the six pillars of the accord. An 
issue of great concern is the almost 300 percent increase in 2018 in 
victims of antipersonnel mines and explosive devices over the previous 
year. Also, the recent call to arms by Jesus Santrich and Ivan Marquez, 
both former FARC commanders, marks a worrying new development in the 
accords' implementation.
    The Colombia of 2019 is far removed from that of two decades 
earlier, making Plan Colombia one of the United States' most successful 
foreign policy initiatives in recent memory. We must protect this 
investment to ensure that Colombia has the needed support as it faces 
new challenges. Colombia's pivotal role as a regional leader in 
advancing security and prosperity means that Colombia's success is 
directly tied to U.S. success.
                    venezuela's multi-pronged impact
    The political, economic, and humanitarian crisis in Venezuela is an 
external threat to Colombia--and to the Western Hemisphere--of the size 
and scope not previously seen. The regime of Nicolas Maduro is a direct 
threat to Colombia's peace and prosperity and that of the hemisphere. 
Maduro welcomes Colombian criminal groups with open arms and shelters 
FARC dissidents and the National Liberation Army (ELN) who engage in 
illegal gold mining and increasingly run their drug trafficking out of 
Venezuela. According to estimates from the Colombian government, over 
1,000 members of the ELN are currently in Venezuela. Colombian criminal 
groups have used the safe haven granted by the Maduro regime to regroup 
and re-arm.
    The freedom to operate in Venezuela has provided Colombian criminal 
groups with new opportunities to launch attacks into Colombia. In 
February 2019, 22 young cadets were killed by a car bomb at the 
Colombian Police Academy, an attack ordered by ELN commanders from 
Venezuelan territory. Last month Ivan Marquez announced a ``new phase 
of the armed struggle'' in a video that Colombian authorities believe 
was filmed in Venezuela.
    The cooperation between the Venezuelan regime and Colombian illegal 
groups seems to have increased recently. According to leaked Venezuelan 
intelligence documents, Colombia's rebels are actively trained and 
armed in Venezuela, including in the use of weapons such as high-tech 
Russian shoulder-mounted antiaircraft missiles. Further, according to 
the Colombian newsweekly Semana, ELN and FARC dissidents are helping 
Venezuela to identify high-value military targets inside Colombia.
    At the same time, Colombia is the primary recipient of the largest 
mass migration in Latin America's recent history. With 1.4 million 
Venezuelan migrants in its territory as of June 2019, Colombia is the 
primary destination for Venezuelans. Estimates from Colombian migration 
authorities project that in a moderate scenario, up to 2.5 million 
Venezuelans could be living in Colombia by year end. That number could 
reach as high as 3.5 million Venezuelans--an unprecedented wave of 
migrants and refugees by global standards.
    President Ivan Duque has adopted a policy of complete solidarity 
toward Venezuelan migrants, providing medical care, housing and public 
education, among other services.
    In the last 2 years, more than 340,000 Venezuelans were treated in 
the Colombian health system, over 29,000 pregnant women gave birth at 
no cost, 156,000 Venezuelan children and youth were enrolled in 
publicly funded schools, and 62,000 Venezuelans had access to public 
protection programs and child and family welfare services. Recently, 
the government granted nationality to 24,000 children born to 
Venezuelan parents in Colombian territory.
    Still, more attention is needed to prevent a regional public health 
emergency that could eventually reach the United States. Malaria, 
chagas disease, dengue, zika and other dangerous infectious diseases 
are prevalent in Venezuela and could rapidly spread throughout the 
hemisphere.
    The Colombian response has not only been humanitarian. A long-term 
solution to the current migration crisis includes giving legal status 
to Venezuelans and integrating them into the labor force. Almost 
700,000 migrants have received temporary protected status, which 
provides them with legal status and facilitates their access to legal 
employment opportunities, healthcare, and education. These measures are 
critical so that migrants can achieve economic self-reliance and 
contribute to the Colombian economy.
    However, a regional consensus on how to absorb the Venezuelan 
influx is necessary and urgent. Recently, Ecuador joined Peru and Chile 
in tightening entry requirements, therefore increasing the burden on 
Colombia. This crisis is a regional problem and cannot be borne by 
Colombia alone. Colombia's generous response to the massive influx of 
Venezuelan migrants and refugees should be viewed as a model for 
countries around the world.
    Naturally, the Venezuelan migration crisis is placing significant 
strains on Colombia's economy. According to the World Bank, the 
estimated economic cost for Colombia in 2018, not including 
infrastructure and facilities, reached 0.4 percent of gross domestic 
product (GDP), or the equivalent of $1.5 billion. But the number of 
refugees has increased since then, and today the Colombian government 
estimates that the cost of providing health care, schooling and other 
services to Venezuelans will be 0.5 percent of GDP.
    Additional international support is urgently needed. In the last 2 
years, Colombia has received approximately $150 million per year in 
assistance from the global community--10 percent of what is needed. 
Colombia has received international funds that equate to approximately 
$68 per migrant--a drop in the bucket compared to the $500 to $900 
donated per migrant or refugee from Syria, South Sudan, and Myanmar. A 
U.N. call for $738 million from the international community has turned 
up less than a third of the money sought, with the United States 
contributing the lion's share.
    The continued flow of Venezuelans to other countries in Latin 
America, and precisely to Colombia, is not sustainable. Fiscal costs 
will peak in 2020 as a result of Colombia's efforts to provide migrants 
and refugees with access to quality healthcare, education, housing, and 
other basic needs. These costs represent a major economic strain for a 
country working to implement a peace agreement and seeking to secure 
institutional control over all its territory.
          a deepened and modernized u.s.-colombia partnership
    The interests of Colombia and the United States are closely linked. 
The new U.S.-Colombia partnership should recognize this reality, and 
capitalize on the opportunities that this represents. The partnership 
will be further solidified as the United States supports Colombia's 
efforts to stabilize territories, foster rural development, and bring 
about a sustainable democratic transition in Venezuela. Economic and 
diplomatic ties will also be strengthened as both countries work 
together to support the eventual reconstruction of Venezuela and to 
advance stability in other parts of the region, particularly in Central 
America.
    With the U.S.-Colombia Trade Promotion Agreement (TPA), the 
opportunities for mutually beneficial trade are enormous. The United 
States is Colombia's largest trading partner and Colombia is the United 
States' third-largest export market in Latin America behind Mexico and 
Brazil. Still, both countries must implement pending aspects of the TPA 
to expand market access and investment protections.
    Additionally, strengthened trade and investment between Colombia 
and the United States will help to provide some counterweight to 
China's growing influence in Latin America. Over the last 20 years, 
trade between China and Latin America has multiplied 18 times, from $12 
billion in 2000 to $224 billion in 2016. Today, China is the largest 
trading partner for Chile, Peru, and Brazil, and, in the case of 
Colombia, China has become its second-largest export partner.
    The future Colombian economy should also prioritize innovation and 
technology as well as linking human capital to rural development. One 
area of opportunity is for Colombia and the United States to expand 
educational exchange programs via scholarships, grants, exchange 
programs, and joint research. About 8,000 Colombians study in the 
United States every year--with an economic impact of $302 million--and 
approximately 236 of them receive full scholarships through the 
Fulbright Program. Expanding opportunities for postgraduate training of 
Colombian students in the United States would make a direct 
contribution to the development of human capital and economic 
development in Colombia, which would benefit shared U.S.-Colombia 
interests.
    A more modern agenda should also find new ways to promote rural 
development, build stronger institutions, and tackle the longstanding 
bilateral stress point, namely coca cultivation. Office of National 
Drug Control Policy figures released in June 2019 show a slight drop in 
coca production from 209,000 hectares in 2017 to 208,000 in 2018. Those 
numbers must continue to drop. President Duque has prioritized coca 
eradication and counter-narcotics efforts overall, with the expectation 
of a continued downward trend in coca cultivation.
    Weak institutions and lack of economic opportunities in rural areas 
affect both Colombia and the United States. These conditions serve as 
the breeding ground for coca cultivation and cocaine production, 
illegal mining, and environmental degradation, as well as the 
strengthening of criminal organizations, all of which affect the well-
being of Colombian citizens as well as U.S. national security 
interests.
    Devoting the necessary effort and resources to implement the peace 
agreement is critical as is bringing to justice those who are in stated 
violation of the agreement and intend to return to conflict. To fully 
implement the agreement and devote the necessary resources to capacity 
building, local governance, and alternative economic development in 
rural areas, Colombia will need the continued support of the United 
States and international community. This is especially true in the 
midst of ever-growing fiscal strains resulting from Colombia's 
commitment to continue to support the growing Venezuelan migrant and 
refugee population. The U.S. Senate has historically risen to the 
occasion to provide resources at critical moments for Colombia.
    The need to double-down on rural development is exemplified by the 
fact that many of the communities that believed the end of the FARC 
meant the arrival of the state are experiencing fierce battles between 
different criminal groups competing over illicit rents. More than 25 
illegal armed groups, with a total of about 7,000 members, operate in 
the country today. The August 2019 call to arms by Ivan Marquez 
reinforces the critical importance of meaningful reintegration of ex-
combatants and attention to unmet needs in rural areas, which are the 
parts of the accord most behind in terms of implementation.
    At the same time, although overall levels of violence have 
decreased in Colombia, a new wave of violence has been unleashed 
against human rights defenders, community leaders, and social 
activists. Estimates of the total number of murders vary across 
sources, but Colombia's Ombudsman's Office reports 317 victims from 
January 2016 to April 2019, most of whom were peasants, Afro-
Colombians, or indigenous persons. Working with the Colombian 
government to stop such killings should continue to be a priority for 
the United States.
    In sum, this is a critical moment to stand by Colombia. It is vital 
for the long-term interests of Colombia, the United States and the 
whole region. A strengthened and modernized U.S.-Colombia partnership 
involves deepening bilateral trade and investment, promoting rural 
development in Colombia, cooperating to find a solution to the world 
drug problem, and finding a peaceful solution to the Venezuela regional 
crisis. This multi-pillar focus will help catapult Colombia to the next 
stage of prosperity and provide the United States with an even stronger 
partner in the Western Hemisphere at a moment of great concern.
    Thank you, once again, for the opportunity to appear before the 
Subcommittee today. I look forward to answering your questions.

    Senator Rubio. Thank you.
    The ranking member.
    Senator Cardin. Well, thank both of you.
    You heard our discussion during the first panel. Mr. 
Marczak, your point about the international community's support 
for the migrants from Venezuela in Colombia is eye-opening. It 
is shocking. $68 per migrant versus $500 to $900 for the Syrian 
crisis.
    We cannot do this by government alone. We are going to have 
to have help from the private sector. That has been 
underscored. In the Council's work, that has been one of our 
key points.
    What should we be mobilizing to help Colombia on the 
migrant issue so that they can make the progress they need to 
in regards to their economy, in regards to dealing with drug 
issues, in regards to dealing with implementing the peace 
process?
    Mr. Marczak. Well, thank you, Senator Cardin, for that 
question.
    As mentioned in the earlier panel, the question of an 
international donor conference for Colombia is fundamental. 
This is one of the recommendations in our report is that more 
analysis is needed on specifically----
    Senator Cardin. We have got to get countries to attend.
    Mr. Marczak. You got to get the countries to attend. And 
the numbers that are out there right now--the World Bank 
estimate of how much it costs Colombia, .4 percent of their 
GDP--that only takes into account the short-term needs that 
Colombia is doing, the short-term housing, the education. It is 
not the long-term needs that Colombia will have to bear to 
absorb the millions more that could potentially be coming from 
Venezuela. It is pivotal that the United States and the 
international community work with member countries to provide 
that support and convene donors to really focus on the 
importance of this crisis in Colombia.
    At the same time, what is critical is to help Colombia in a 
number of other areas. One of those is data gathering and 
collection and of other collection techniques. The Colombians 
are trying to find for two different types of data collection 
efforts: one on data gathering to facilitate integration; 
another data gathering for security, knowing who is crossing 
the border, getting sensors, getting drones at the border.
    On the first point----
    Senator Cardin. Well, on that point, I invite both of you 
to respond. The Chairman raises a very valid point. How do you 
maintain a stable government when you have a border country 
that is harboring your terrorists, the FARC rebuilding? You 
said monitor the border. I wanted to stop you on that because 
maybe that is part of the answer to deal with the FARC presence 
in Venezuela coming back into Colombia. Is that viable?
    Mr. Marczak. Thank you, sir. Yes. The Colombians can 
tremendously benefit from increased U.S. support through 
technology to strengthen its border, drones, sensors. The FARC, 
the ELN in particular, are frequently crossing back and forth 
across the Colombian-Venezuelan border. They have impunity. 
Dictator Nicolas Maduro and Venezuela grants them that 
impunity, and they use that impunity to target Colombian 
sources, to launch attacks in Colombia, and then go back across 
that border. So the more that the United States can do to 
facilitate strengthening that border--we are not going to be 
able to put soldiers across that entire border, but we have the 
technology to be able to help the Colombians.
    Senator Cardin. Let me ask both of you. We applaud Colombia 
having an open border so Venezuelans can escape the horrific 
humanitarian crisis and find safe haven in Colombia. We noticed 
more countries in the region are requiring visas. They are 
starting to close their border. Is Colombia right to keep the 
open borders? We wanted them to, but from an internal security 
point of view, are they right to do that?
    Ms. Balling. Well, first I would say one of the wonderful 
things about the Colombian people is that they are actually 
quite grateful to the Venezuelan people for when, during the 
time of, for example, Pablo Escobar, there were thousands of 
Colombians that had to resettle in Venezuela. So there is an 
unusual amount of good will between the two peoples.
    As Mr. Marczak said, unfortunately, the Colombian military 
is not capable of shoring up the border, in part because the 
topography makes it impossible. Drones are certainly a good 
suggestion.
    I think until the Colombian people no longer have the will 
to welcome their Venezuelan neighbors, the Colombians are doing 
the right thing. And as both Senators have suggested earlier, 
it is quite remarkable because they are essentially standing 
alone because, as you say, the other neighboring countries are 
requiring visas.
    So as I mentioned in my testimony, at least for a short-
term solution, I think helping the Colombians manage the 
security situation in those specific four departments that 
border Venezuela could definitely make an impact.
    Mr. Marczak. Can I just emphatically say that the Colombian 
model is a model to the rest of the world. The way that the 
Colombians are treating migrants and refugees should be 
broadcast around the world as an example of what you do in a 
situation like this, the welcoming of millions, and not just 
welcoming them, not just providing health care and housing and 
education services, but actually giving them the status so that 
they could actually formally work inside Colombia, the recent 
granting of Colombian nationality to children of Venezuelan 
parents born inside Colombia, and looking at the Venezuelan 
migrant/refugee situation as not about people who are going to 
go back the next day, but looking at how do they incorporate 
these people into their society.
    Senator Cardin. I agree completely with you. They should 
not be penalized. They should be rewarded, and that is why we 
are all frustrated there has not been more international 
support for the burden that they are bearing with open borders. 
But I agree with you.
    Thank you, Mr. Chairman.
    Senator Rubio. So a couple points here to tie this up.
    It is a complex situation with the migration, number one. 
There is actually a substantial number of Venezuelans that also 
hold Colombian citizenship, predating the migration. So that is 
a factor.
    The other is clearly--you know, it is interesting. If you 
went back 25 years, it was the reverse. It was the Colombians 
going into Venezuela. And so I think that gratitude has played 
a role in this reception.
    But there are indications--and I am not being critical. It 
is a natural reaction of any country that--we saw it very 
quickly happen in Peru. We saw it very quickly happen in 
Ecuador. There is a natural tendency at some point in time for 
it to begin to create fractures and pressures inside of a 
society. So I am not prepared to say that there is an emerging 
xenophobia, but there are the beginning signs that the support 
for this migration has begun to sort of flag a little bit among 
the general population in Colombia as more and more of this 
burden is being fully felt. And that is something to be 
concerned about. Is that your assessment as well?
    Mr. Marczak. I agree with that assessment, Chairman. I 
think that this is a phenomenon, as you correctly state, 
throughout the world, just recently on a trip to Colombia, 
seeing a news broadcast and seeing the people being labeled as 
Venezuelans when a particular crime was committed. And I think 
that that further reinforces the need, as talked about in 
today's subcommittee hearing, for additional international and 
U.S. support for Colombia at this critical moment. Colombia 
just does not have the fiscal resources to be able to implement 
the peace accord, deal with FARC and ELN attacks coming from 
Venezuela, and at the same time provide services and 
integration for millions of Venezuelans that are crossing its 
border.
    Senator Rubio. Is that your assessment as well?
    Ms. Balling. Yes, that is my assessment absolutely. As I 
said, I think that these types of specific civil affairs 
efforts that U.S. SOUTHCOM and U.S. SOC SOUTH could execute 
could really help with that because, yes, I have heard that the 
tensions are beginning to worsen and unfortunately, of course, 
among the poorest of Colombia's citizens.
    Senator Rubio. And I do not raise to be critical----
    Ms. Balling. No, no. It is just natural.
    Senator Rubio. And to add to it though, I also do not want 
people to take for granted that what we have now is forever, 
that this is some sort of a permanent thing that we can accept. 
I do think that there is the potential at some point for this 
situation to take a different direction if it continues for 
much longer.
    I do want to say, because it has been mentioned a couple 
times--and I do not know if this has been noted by others and I 
failed to do so. But there was a donor conference convened I 
believe by our mission at the OAS with Ambassador Trujillo and 
others a few months ago. And I think there was $100 million 
pledged, which is 10 percent or less of what the annual cost 
is. I am not sure how much of that $100 million ultimately came 
in, but the lion's share--and I think it was noted in your 
testimony, Mr. Marczak. The lion's share of the international 
contribution has been U.S. dollars. I forgot the number. It is 
about $300 some odd million at this point, about $375 million 
or so--U.S. assistance.
    Mr. Marczak. That is correct, Chairman. And of that $100 
million pledged at the OAS conference, only a fraction of that 
money has actually come to fruition.
    Senator Rubio. And then the U.N. put out a call as well, 
and I think a very small reaction to that as well. So there 
have been efforts. It is not fair to say there have not been 
efforts. There have been efforts to step up. But frankly, we as 
policymakers do not like it. We complain about it, but we are 
going to have to do a lot of this ourselves if we want it done. 
And that is why this hearing is so important. We can sit here 
and hope that others will step up, but ultimately we have to 
make a decision about whether it is in our national interest to 
do so or not. And I hope after this hearing today that we can 
convince more of our colleagues of that.
    A side note because I do not want to forget to ask. You 
mentioned, Mr. Marczak, the Free Trade Agreement. I do not know 
what the numbers have been the last couple years, but for some 
substantial period of time, there was actually a trade deal we 
ran a surplus on of trade. I do not know if those numbers 
remain that way, but it is a pretty good deal for the U.S., in 
essence. It is certainly very good for Miami where I live and 
in south Florida and in Florida at large. But it is actually a 
real success. We talk a lot about Plan Colombia, but one of the 
real successes of our relationship has been the trade 
opportunities that it has created. So I do not know what the 
numbers are. Maybe one of you do, but I know for a while it was 
a surplus. It may still be the case.
    On the military and the border, one of the interesting 
things is for all of their reputation of being militant and I 
see descriptions of Duque as more with a firmer, harder hand 
than Santos. And I think the people who say that often use it 
to criticize him. They have actually deliberately avoided 
sending military units to the border. For example, when the 
effort was made to bring in humanitarian assistance across the 
border into Venezuela, it was police units that they deployed. 
And one of the reasons why is the fear that if they deployed 
military units to the border, it could inflame tensions and 
lead to a military escalation. And they have also shown 
tremendous restraint. I think there is clear evidence that not 
only was tear gas and other things fired into Colombian 
territory, but there were even intrusions by some of the 
national guard elements. So I think they have shown tremendous 
restraint.
    And I say that only because there is a challenge there 
between--and it is something that may need to happen, but if 
you stand up and bulk up a military presence on the border, 
there are some that will accuse that of being militarization, 
in essence, a provocative act in response. And I do not know if 
any of you have sort of thought through that or what the 
international reaction to that would be. Colombians are 
sensitive to it.
    Ms. Balling. Yes, absolutely, Chairman. And forgive me for 
repeating myself. That is why these very specific forms of, 
quote/unquote, ``military presence'' are crucial. So that is 
one of the functions civil affairs teams serve. And that is one 
of the missions of accion integral is to essentially actually 
present the military as an extension of the state as a 
protector of democracy, but not in an offensive, aggressive 
way. And these specific programs actually are the programs 
designed to show the citizens that they do not look at the 
national police and the army as aggressive invaders and so 
forth. It is nuanced. But that is why I feel very strongly 
about backing these specific programs.
    Senator Rubio. And I do not disagree. I think one of the 
challenges people are unaware of is when the peace deal came 
into being and FARC elements would pull out, immediately other 
criminal elements would step in and now begin to fight. And 
some of the violence that we keep hearing about are these 
different criminal elements saying, hey, there is a vacuum 
there now. It is like if a gang abandons a neighborhood. So 
these four other gangs start fighting over who now inherits 
that territory. And that has also been a challenge to the state 
in dealing with that reality as well.
    And then clearly in many of these areas that have not had a 
government presence for a significant period of time, people 
grew up in a culture and society where government forces coming 
in were viewed as hostile. And so changing that perception is 
important.
    I think one of the things I had hoped would come from this 
hearing is one of the things that you talked about--I think 
both of you really have alluded to--and that is we really do 
need to upgrade and update. You know when you get that alert 
that your app has a new update? We really do need to update 
this relationship because it now faces a set of challenges that 
extend beyond Colombia's border. And frankly, I am not sure 
that our current programs, as they are currently constructed, 
fully address the full spectrum of those challenges.
    Obviously, we will await the work that you have done along 
with Senator Cardin and Blunt, which I guess you will announce 
a review on next week?
    Mr. Marczak. Next Thursday.
    Senator Rubio. And is that one of the things you have 
looked at, what that update to the app looks like?
    Mr. Marczak. Yes. This is a refresher. This is the app 2.0. 
And it is how to provide for a modern blueprint for a U.S.-
Colombian partnership.
    Senator Rubio. Because one of the things that I have spoken 
to the National Security Council about, I have spoken to the 
Department of State about to some extent about is we really do 
need a more holistic approach to this that involves the use, 
for example, of the OAS, which I think has been reinvigorated 
in a role that it reinvigorated. And that has been positive. It 
looked at how our existing programs coincide.
    But at the core of it is the argument I consistently make, 
and that is it is impossible to simply focus on Colombia as a 
challenge that exists within the confines of their own border. 
It is impossible to deal with these issues that we are 
discussing as long as there is a mafia acting as a government 
in a neighboring country cooperating and, in some cases, 
potentially training and harboring criminal elements who have 
among their stated intent the overthrow of your government. And 
I think about what nation on earth could sit there and 
permanently tolerate that groups hostile to the government and 
prepared to carry out armed attacks and killings is operating 
with impunity and you are basically sitting there unable to do 
anything about it. I think that is an intolerable situation 
that eventually has to come to a head one way or the other.
    And so ideally it would be a regional response to it. 
Perhaps the beginning of the Rio discussion will convince more 
countries in the region that this is a regional response that 
needs to happen to this.
    But I just do not know ultimately how we solve any of these 
challenges that we are discussing as long as--no matter how 
much they eradicate coca, no matter how much we fund the 
migrant situation, all these things will help. But as long as 
there are these armed criminal groups operating with impunity, 
I do not know this gets substantially improved. I do not know 
how you solve this problem without dealing with that specific 
part of the problem.
    Mr. Marczak. Chairman, if I may. I fully agree.
    First, the task force report, which I look forward to 
sharing with you that will be coming out next week, looks at 
not only the challenges of Colombia being beyond Colombia's 
borders, but also frankly the opportunities that Colombia 
brings. Colombia is a regional and a global leader on security 
assistance. Colombia is a regional leader on economic 
prosperity, on democracy promotion. And Colombia frankly is the 
regional leader through the Lima Group and working to solve the 
Venezuela crisis.
    I think as you pointed out beforehand with regard to the 
influx of Venezuelans to Colombia, the illegality of what is 
occurring in Venezuela will only continue to grow the longer 
that Nicolas Maduro stays in power. The more that he is 
squeezed, the more he is going to continue to resort to illegal 
groups and illegal sources of funding. And that illegal source 
of funding, arms trafficking, illegal gold trafficking, arms 
smuggling, money laundering--this is what is helping to keep 
the regime afloat, among other issues. And that needs to be 
curtailed or else he will continue to resort to illegality and 
to the FARC and ELN and other groups as his supporters.
    Ms. Balling. Yes. I would say one good thing is now that 
the peace accord has been signed, there is no longer what was, 
I think, an incredibly high level of political pressure to have 
that deal signed at whatever cost. Now, as a result in my 
opinion, there were certain things that perhaps were somewhat 
more permissive than they could have been with the FARC. Be 
that as it may, it has been signed. I think it is crucial for 
the U.S. and Colombia now to be very pragmatic without the 
burden of the political pressure of signing a deal with a 
terrorist organization with regards to the security situation. 
So I actually look at this as a positive.
    Senator Rubio. Look, I know there is a lot of talk about--
people love to talk about the deal because I think, for 
whatever reason in our culture, we view deals as the answer to 
every problem. The problem is deals are only as good as 
compliance. And in a deal with a criminal organization, even if 
80 percent of them comply, that is still a lot of armed people. 
You had FARC dissidents almost from the beginning. And then you 
had these other criminal groups that stepped into the vacuum. 
You still had to deal with the ELN, which was not part of the 
deal. And then you saw what happened when one of them decided 
we want to sell drugs again, and you went after them. They 
claimed you are violating the deal as if somehow it gave them 
impunity to act.
    So I think it is important to understand that--and by the 
way, we also need to point out that that deal failed in a 
national referendum in Colombia. It never had the buy-in of the 
population. It required Santos to go through the legislative 
process and twist arms to get the votes for it.
    But, look, that is a sovereign issue for them to determine. 
We are here to help them either way.
    I do want to say this one more point, and that is, you talk 
about the economic opportunities. But when someone says to you 
we are going to harm the state, we are now at war with the 
state and they are going to try to harm you, that is not just 
about shooting at them. It is about going after their economy. 
And these criminal elements know that one of the best ways to 
go after the Colombian economy and harm them as an attractive 
place for investment is to carry out attacks in urban centers, 
which we have not seen in quite a while where they used to be 
commonplace back in the day. It is what the cartels did. When 
Escobar wanted to pressure the government to provide him 
whatever it is he wanted at that point, which I think was just 
impunity and amnesty, he blew up airplanes. He blew up 
newspapers. He attacked in the urban centers.
    And so I do not think it is far-fetched that at some point 
in the near future, Colombian authorities are going to be aware 
of efforts to carry out attacks in urban centers being 
organized, orchestrated, and perhaps financed from the 
territory of Venezuela.
    And I want people to put yourselves in their shoes for a 
moment. Imagine the United States was aware that there was a 
terrorist organization somewhere in the world plotting to 
attack and carry out attacks in our cities. We would go after 
them in that territory, and no one could say anything to us 
about it. We have a right to defend ourselves.
    And I do not know if policymakers and those who cover this 
have been sufficiently socialized the fact that no matter what 
we are talking about here today, that is something that I think 
is going to happen at some point here. There will come a point 
where if these people are serious about waging war against the 
state, they will try to conduct and may even carry out 
successful attacks similar to what we saw in the police academy 
but at a much higher rate. And I do not know what people are 
prepared to say or do about when Colombia turns to the world 
and says this is unsustainable for us. We have to do something 
to stop this. And we have a regime next door that is unwilling 
to do anything about it. We are going to have to take it upon 
ourselves, and what response that would elicit and what that 
could mean and what would unfold.
    I do not know if either of you have given thought to that 
contingency, which I think is not a far-fetched one. In fact, I 
think it is a likely one.
    Mr. Marczak. Chairman, I think a couple of things.
    One is I think it highlights as well the importance of 
implementing the peace accords in Colombia, the attention to 
rural development in Colombia, because as you state, the FARC 
and the ELN are using Venezuelan territory as an opportunity to 
regroup, rearm, identify targets within Colombia.
    But at the same time, there are vast swaths of Colombian 
territory, as part of the peace accords, that need to be 
developed. And that goes from creating alternative economic 
models, not just crop substitution, but actually creating new 
economic models in rural territories. It involves state 
capacity in rural territories. It involves interconnectivity. 
It involves building secondary, tertiary roads. It involves 
bring electricity: all of these different factors that can 
convert rural territories from being areas where illegal groups 
or criminal organizations thrive to ones where there is 
actually a state presence and a thriving economy. So I would 
like to add that into part of the equation here: the need for a 
multidimensional strategy and the need for U.S. support for 
Colombia in implementing that.
    Senator Rubio. And I agree 100 percent. There is nothing 
bad, and a lot of good comes from winning the hearts and minds 
of people who have not had interaction with the government in 
many cases their whole lives.
    But that does not stop a criminal organization who is 
plotting to detonate bombs in Bogota operating from Venezuela 
and then using a porous border to insert those terrorists into 
the country to carry out these attacks. And you are the 
Colombian authority sitting there. You see this is about to 
happen, and you want to stop it before it does. And maybe you 
can intercept them at the border. Maybe your informants on the 
ground will tell you these guys are coming over because you 
have a better relationship with them. But maybe you have to go 
after them.
    And I am not saying that is going to happen tomorrow 
morning. I am just that is where I think this leads, knowing 
how these things work and knowing how these particular groups 
work. Is that something you have looked at or talked about?
    Ms. Balling. Yes. So again, actually roads are a huge 
issue. I mean, that is definitely something that keeps the poor 
rural Colombians isolated. And by the way, when it comes to 
building the roads, it is their army corps of engineers. And 
unfortunately, they have in the past had problems because the 
perception of them by the population is that they are 
aggressive and so on. So that is again an example of when, 
unfortunately, sometimes it is the army that is really the only 
representative of the state.
    Whether the FARC is operating geographically beyond its 
border or in, unfortunately, any of the myriad areas of 
Colombia where it is very difficult to access them, it 
underscores the importance again of intelligence. As you might 
remember when the DAS imploded, that was a significant blow to 
the Colombian intelligence system in general. So I think that, 
again, if we could take a close look at how to improve that 
because from what I experienced, having interviewed scores of 
FARC, some commanders and some civilians--they were not, since 
the 1990s, motivated by ideology. It was whether they were 
forcibly recruited or--well, it is really the fact that they 
can make more money, as you pointed out, trafficking drugs, et 
cetera.
    So in terms of intelligence effectiveness of weakening a 
given group, that is the good news. In other words, I think 
actually the ELN, despite their smaller numbers, is far more 
ideologically motivated and therefore perhaps a little bit more 
difficult to penetrate when it comes to HUMINT. But I do think 
that with a renewed focus on intelligence gathering, that this 
is a way that we could help the Colombians combat what could be 
advantage now if Maduro is in fact letting these commanders sit 
in his back yard.
    Senator Rubio. And I just have two wrap-up comments, not 
even questions, although if you have a comment, I would welcome 
it.
    The first is we talked about the border. You look at a map, 
and there is a line, but that is not really how this works. It 
is largely an ungoverned swath of people coming across all the 
time in areas. And part of it is the topography makes it 
difficult. Part of it is the lack of a state presence in some 
of those places because the cost of maintaining a human 
presence there is quite high. You have people shooting back at 
you. So I think that is important. A lot of people do not 
realize it. It is a border, but it is a geographic border with 
coordinates and the like. But it does not function in that way. 
It really is more of an ungoverned corridor space and parts of 
it because it is really difficult both because of the 
topography and also because of the violence and other things 
and even resources.
    And the last point I would make is--I do not want to 
misstate this either--that if tomorrow morning Maduro gets on 
an airplane and flies to Havana and retires, that this all goes 
away. The transition in Venezuela is not going to be this 
linear, one-day-to-the-next issue even in the best case 
scenario. Even if tomorrow morning, Juan Guaido was able to 
rightfully assume control of the apparatus of the state, there 
is reason to believe that for a substantial period of time, the 
Venezuelan state under new leadership would not have the 
capacity to deal with some of these matters. In fact, one of 
the biggest concerns I would have in the short term is the 
sheer volume of people currently wearing police and army 
uniforms that would quickly abandon their posts because of the 
fact that they are only there now either because they receive 
some small benefit that the general population does not or 
because of what happens to defectors and their families when 
they do leave.
    So my point is that this Venezuela problem, even if 
tomorrow there was a political transition that began and it was 
ideal, you still have a host of other capacity and societal 
challenges. You have armed elements, the colectivo groups in 
Venezuela that certainly work for the state and operate at the 
direction of the regime, but who are criminals that are not 
just going to all of a sudden decide to go in to open a chain 
of car washes or laundromats.
    So this is really complicated. I do not want to simplify 
the long-term challenges that Venezuela poses when you have 
upwards of 4.5 million to 5 million people in your population, 
when your entire infrastructure is destroyed. This is a long-
term commitment we have on our hands here even beyond what we 
are facing here today.
    Well, thank you both for being a part of it. We look 
forward to seeing that report. I know Senator Cardin is going 
to get all the credit for it, so that is good.
    [Laughter.]
    Senator Rubio. Blunt too.
    Senator Cardin. Let me read it first. Then I will see.
    Senator Rubio. Yes.
    Do you have anything else?
    Senator Cardin. No. Again, I thank the witnesses, and I 
really do thank the Task Force that has been set up. I do look 
forward to their report. I think it can be very helpful to us.
    Senator Rubio. And unfortunately, we are talking more about 
the hemisphere because of these challenges. But I think we have 
talked more about the hemisphere in the last couple years than 
we ever have. So even today with the attendance of the chairman 
and you saw the ranking member, who has had a long commitment, 
stay, you saw the attendance on the minority side, so I think 
it is good that there is more conversation happening about the 
region. And unfortunately, it is because of these challenges. 
But I do hope we can build some real momentum and that your 
report and other products that are put out could serve as sort 
of a blueprint that policymakers could take and begin to 
implement.
    All right. Well, I want to thank you both for your patience 
and time. It has been a longer hearing than we anticipated but 
I am glad it has been because it is an important topic and one 
I care a lot about. Just as a side note, we have tried to have 
this hearing now for a few months. We struggled to get people 
to sit there on the first panel for a while, but it all worked 
out. The second panel was ready to go for a long time. But we 
got there and we are happy about that. Again, we thank you for 
being here.
    The record will remain open for 48 hours after the close of 
this hearing.
    With that, the hearing is adjourned.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   The Committee Received No Response From Mr. Jason Marczak for the 
      Following Questions Submitted by Senator Benjamin L. Cardin

    Question. How can we further deepen the U.S.-Colombia trade and 
investment relationship?

    [No Response Received]

    Question. Coca crops are cultivated in areas with vastly different 
topographies. What would a more differentiated approach look like for 
U.S. assistance that takes into account this reality?

    [No Response Received]

                                  <all>
</pre></body></html>
